<html>
<title> - COUNTERING DOMESTIC TERRORISM: EXAMINING THE EVOLVING THREAT</title>
<body><pre>[Senate Hearing 116-154]
[From the U.S. Government Publishing Office]


                                                   S. Hrg. 116-154

      COUNTERING DOMESTIC TERRORISM: EXAMINING THE EVOLVING THREAT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             FIRST SESSION

                               __________

                           SEPTEMBER 25, 2019

                               __________

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                                         

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-463 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------

        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
                   Joseph C. Folio III, Chief Counsel
                Margaret E. Frankel, Research Assistant
             Nicholas O. Ramirez, U.S. Coast Guard Detailee
               David M. Weinberg, Minority Staff Director
          Alan S. Kahn, Minority Senior Investigations Counsel
                 Claudine J. Brenner, Minority Counsel
             Megan L. Petry, Minority Investigative Counsel
           Charles W.E. Shaw, Minority Investigative Counsel
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk

                           
                           C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Peters...............................................     3
    Senator Portman..............................................    16
    Senator Hassan...............................................    20
    Senator Carper...............................................    22
    Senator Rosen................................................    24
    Senator Scott................................................    27
    Senator Sinema...............................................    31
Prepared statements:
    Senator Johnson..............................................    43
    Senator Peters...............................................    45

                               WITNESSES
                       Monday, September 25, 2019

William Braniff, Director, National Consortium for the Study of 
  Terrorism and Responses to Terrorism (START), and Professor of 
  the Practice, University of Maryland...........................     5
Clinton Watts, Distinguished Research Fellow, Foreign Policy 
  Research Institute.............................................     7
Robert M. Chesney, James A. Baker III Chair in the Rule of Law 
  and World Affairs, and Director, Robert Strauss Center for 
  International Security and Law, University of Texas at Austin 
  School of Law..................................................     9
George Selim, Senior Vice President for National Programs, Anti-
  Defamation League..............................................    11

                     Alphabetical List of Witnesses

Braniff, William:
    Testimony....................................................     5
    Prepared statement...........................................    47
Chesney, Robert M.:
    Testimony....................................................     9
    Prepared statement...........................................    84
Selim, George:
    Testimony....................................................    11
    Prepared statement...........................................    98
Watts, Clinton:
    Testimony....................................................     7
    Prepared statement...........................................    79

                                APPENDIX

Statements submitted for the Record from:
    Arab American Institute......................................   114
    Arab Community Center for Economic and Social Services.......   119
    American Civil Liberties Union...............................   123
    Leadership Conference on Civil and Human Rights..............   130
    Muslim Public Affairs Council................................   132
    Shirin Sinnar................................................   142
Responses to post-hearing questions for the Record:
    Mr. Braniff..................................................   151
    Mr. Watts....................................................   159
    Mr. Chesney..................................................   164
    Mr. Selim....................................................   169

 
      COUNTERING DOMESTIC TERRORISM: EXAMINING THE EVOLVING THREAT

                              ----------                              


                     WEDNESDAY, SEPTEMBER 25, 2019

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Romney, Scott, Hawley, 
Peters, Carper, Hassan, Sinema, and Rosen.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Well, good morning. This hearing of the 
Senate Committee on Homeland Security and Governmental Affairs 
will come to order.
    I want to thank the witnesses. We talked back in the 
cloakroom. Excellent testimony on a very topical issue here. 
The Department of Homeland Security (DHS) has just released 
their Strategic Framework on basically domestic terror, 
targeted terror.
    What the witnesses are going to be testifying to really 
ties in very nicely with what the Department is trying to do as 
well. We are working with the Department quite honestly right 
now on kind of the data part of this. If we can get some 
language codifying some of the things they are talking about 
here into the National Defense Authorization Act (NDAA), we 
will try and do that. Otherwise, we have another opportunity 
with the Intelligence Authorization Act. Otherwise, we will 
just move it before our Committee. So, again, this is an 
incredibly timely hearing.
    Normally I just enter my written statement into the 
record,\1\ but I actually want to read my opening statement 
because I want to be precise here. So, again, thank you for 
your attendance. The first and what I expect will be a series 
of hearings examining domestic acts of terrorism. Although we 
must always remain vigilant, the defeat of the territorial 
caliphate of the Islamic State of Iraq and the Levant (ISIS) 
and focused counterterrorism efforts have resulted in the 
recent decline in the number of ISIS-inspired terrorist attacks 
in the United States and worldwide. Unfortunately, the increase 
in domestic attacks has kept our Nation on edge and forced a 
re-evaluation of how law enforcement can and should deal with 
different kinds of threats.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 43.
---------------------------------------------------------------------------
    In May, Ranking Member Peters and I sent letters to the 
Department of Homeland Security, the Federal Bureau of 
Investigation (FBI), and the Department of Justice (DOJ) 
requesting basic information about their efforts to track, 
counter, and prevent all forms of domestic terrorism. From the 
outset of our inquiry, it has been clear that there is a lack 
of consistent and reliable data concerning domestic terrorism.
    A quick little side note. It is not an easy issue. How do 
you find these things? How do you track these things? I think 
that will be coming out, but, again, that is what we are trying 
to do, potentially in a piece of legislation to codify this.
    But if the Federal Government is not accurately tracking 
the threats and outcomes, it is exceedingly difficult for 
agencies and Congress to properly allocate resources and/or 
determine if additional authorities are required.
    In allocating law enforcement resources and considering new 
authorities, it is important to put the threat and human cost 
of terrorism into perspective. In the 51 years from 1967 
through 2017, there were 938,000 murders committed in the 
United States--an average of about 18,393 murders per year, or 
about 183,000 per decade. According to the Washington Post and 
their definition, since August 1, 1966, there have been 167 
mass shootings in which 1,207 individuals were killed--an 
average of approximately 228 per decade. And Study of Terrorism 
and Responses to Terrorism (START) Global Terrorism Database 
(GTD) reports 3,774 deaths from terrorist attacks in the United 
States over the last five decades starting in 1970. If you 
exclude 9/11's death toll of 2,996, terror-related deaths since 
1970 equal 778--an average of 156 per decade.
    In citing these statistics, I am in no way minimizing the 
human cost of terrorism or mass shootings. Every murder, 
regardless of the cause, is a tragedy that takes an 
incalculable toll on the lives of those affected. As a result, 
public policy, operating within the bounds of constitutional 
government and limited resources, should be designed to prevent 
as many of these tragedies as possible. The purpose of this 
hearing is to explore the many issues raised in attempting to 
achieve that worthy goal.
    We need to understand how authorities differ in addressing 
international terror versus domestic terrorism. What is the 
proper role of Federal versus State governments? What 
definitions need to be developed and what data needs to be 
gathered? What can be done to prevent online radicalization? 
And maybe the most fundamental and vexing question is: How does 
a free and open society deal with someone who is ``not guilty 
yet''?
    One final thought. Although I took no offense from any of 
the testimony because I know none was intended, I do want to 
challenge the use of ``far-right'' and ``far-left'' as 
descriptive adjectives for hate groups like white supremacists, 
anti-Semites, or environmental terror groups. I realize this 
has become accepted terminology, but I believe we need to break 
that habit. There is an acknowledged political spectrum ranging 
from left to right that is a useful shorthand description of 
one's general political philosophy. But hate groups not only 
fall far outside that spectrum, they also advocate and use 
violence to advance their political aims--a radical rejection 
of the norms that permit America to be a free and self-
governing country. Those of us who abide by the fundamental 
rejection of political violence do not want to be, nor should 
we be, associated with such despicable views and evil behavior. 
So let us drop the far-right/far-left descriptors, and simply 
call a hate group a ``hate group'' and a terrorist a 
``terrorist.''
    Again, we have assembled a highly qualified panel of 
witnesses to discuss these and other issues. I thank you again 
and look forward to your testimony.
    With that, I will turn it over to Senator Peters.

             OPENING STATEMENT OF SENATOR PETERS\1\

    Senator Peters. Thank you, Mr. Chairman. I am certainly 
grateful to the Chairman that today, for the first time, this 
Committee is holding a hearing that gives us the opportunity to 
focus on white supremacist violence, a form of terror that is 
older than our Nation itself.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Peters appears in the 
Appendix on page 45.
---------------------------------------------------------------------------
    Since September 11, 2001, this Committee has held more than 
50 hearings focused on terrorism. We have been, and we remain, 
rightly focused on the threat posed by foreign terrorists and 
their homegrown imitators.
    Unfortunately, over that time, we have not adequately 
grappled with white supremacist violence. Over the last decade 
it has become, by far, the deadliest form of domestic violence 
that we face.
    Its trademark racist rhetoric and dehumanizing language has 
embedded itself in our public discourse. And it is amplified 
around the world at the speed of light via social media 
platforms.
    In Charleston, the shooter who took the lives of nine 
African American churchgoers as they gathered in prayer had 
self-radicalized online and regularly espoused racist rhetoric 
on his own website.
    The terrorist who ran down a crowd of peaceful protesters 
in Charlottesville drove hundreds of miles to join in the 
largest and most violent gathering of white supremacists in 
decades.
    The extremist who murdered 11 worshippers at the Tree of 
Life synagogue, the deadliest attack on the Jewish community in 
our Nation's history, regularly posted anti-immigrant and anti-
Semitic conspiracy theories on white supremacist online 
platforms.
    A white supremacist in Southern California was inspired by 
the horrific Christchurch mosque attack--which was livestreamed 
and shared virally--and the Tree of Life massacre. He failed in 
his attempt to burn down a mosque but succeeded in shooting up 
a synagogue, killing one and injuring three, including the 
rabbi.
    The perpetrator in El Paso, who killed 22 people and 
wounded dozens more in the deadliest attack on the Latino 
community in our Nation's history, also cited the Christchurch 
attack and spewed familiar hateful rhetoric about a ``Hispanic 
invasion'' in a manifesto that he posted online.
    White supremacy is a homeland security threat. That is why 
Chairman Johnson and I have launched one of the first 
bipartisan efforts in Congress to address it. In May, we asked 
the Department of Homeland Security, the FBI, and the 
Department of Justice this question: How many Americans have 
been killed or injured in domestic terrorist attacks since 
2009, broken out by ideology?
    It took DHS 2 months to tell us they did not know. After 4 
months, the FBI and the Justice Department have simply failed 
to respond. Last week, in response to our pressure, DHS finally 
released a policy paper acknowledging the growing white 
supremacist threat.
    But we cannot effectively address a threat that we cannot 
measure. We need data to track and assess this rapidly evolving 
threat so that we can ensure that our resources are aligned 
with the threats that we face.
    Today we will have a discussion about a path forward. We 
need to confront the scourge of domestic terrorism, and any 
solutions we consider must be based on facts and sound data.
    But even the most well-intentioned policies can have 
harmful, unintended consequences. Looking back on our response 
to September 11th, I am acutely aware of how our policies were 
wrongfully used to cast suspicion on entire communities, 
primarily Arab Americans and Muslim Americans--including 
vibrant, patriotic communities that I am blessed to represent 
in Michigan. As we work to tackle the threat posed by domestic 
terrorism and white supremacist violence, we cannot repeat the 
mistakes of the past.
    I hope that today's hearing will be an important step 
toward meaningfully addressing the growing threat of white 
supremacist violence. We must be clear-eyed about the 
challenges that we face, focus our resources according to 
accurate threat assessment, and make sure that all Americans 
feel safe where they live, where they work, and where they 
pray.
    Mr. Chairman, I would also like to add that I have heard 
from countless stakeholders in Michigan and nationwide who care 
deeply about our efforts today, and I have received statements 
from the American Civil Liberties Union (ACLU), Professor 
Shirin Sinnar of Stanford Law School, the Arab Community Center 
for Economic and Social Services, the Muslim Public Affairs 
Council, and the Leadership Council on Civil and Human Rights, 
and I ask that they be entered into the record.\1\
---------------------------------------------------------------------------
    \1\ The information referenced by Senator Peters appear in the 
Appendix on page 114.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Thank you, Senator Peters.
    Senator Peters. Thank you.
    Chairman Johnson. It is the tradition of this Committee to 
swear in witnesses, so if you will all stand and raise your 
right hand. Do you swear the testimony you will give before 
this Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Braniff. I do.
    Mr. Watts. I do.
    Mr. Chesney. I do.
    Mr. Selim. I do.
    Chairman Johnson. Please be seated.
    Our first witness is Professor William Braniff. Professor 
Braniff is the director of the National Consortium for the 
Study of Terrorism and Responses to Terrorism at the University 
of Maryland. Prior to his work at START, Professor Braniff was 
director of practitioner education and instructor at West 
Point's Combating Terrorism Center. Professor Braniff, a 
graduate of the U.S. Military Academy, began his career as an 
armor officer in the U.S. Army. Professor Braniff.

TESTIMONY OF WILLIAM BRANIFF,\1\ DIRECTOR, NATIONAL CONSORTIUM 
FOR THE STUDY OF TERRORISM AND RESPONSES TO TERRORISM (START), 
     AND PROFESSOR OF THE PRACTICE, UNIVERSITY OF MARYLAND

    Mr. Braniff. Chairman Johnson, Ranking Member Peters, and 
esteemed Members of the Committee, I would like to thank you on 
behalf of the START Consortium for inviting us to testify 
before you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Braniff appears in the Appendix 
on page 47.
---------------------------------------------------------------------------
    START data from a number of relevant datasets demonstrate 
the following:
    In the U.S. over the last decade, domestic terrorists are 
more numerous, active, and lethal in gross numbers than 
international terrorists, including what the U.S. Government 
refers to as ``homegrown violent extremists (HVEs)''.
    Among domestic terrorists, violent far-right terrorists are 
by far the most numerous, lethal, and criminally active. Far-
right extremists conducted over 50 percent of the successful 
attacks in 2017 and 2018.
    There were six lethal attacks in the United States in 2018. 
All six lethal attacks shared far-right ideological elements, 
primarily white supremacy, and, in at least two cases, male 
supremacy. And we observed this general pattern to continue in 
2019.
    Looking back over a longer time horizon, between 1990 and 
2018, the violent far-right was responsible for 800 failed or 
foiled plots, and 215 homicide events, compared to 350 failed 
or foiled plots and 50 homicide events emerging from HVEs.
    They have pursued chemical and biological weapons more 
frequently than HVEs, albeit very infrequently, thankfully. And 
they were more active in the illicit financial world, with 
nearly 1,000 far-right extremists engaging in over 600 terror 
financing schemes and generating over $1 billion in damages to 
the U.S. Government between 1990 and 2013.
    Furthermore, between 80 and 90 percent of the hate crime 
perpetrators in START's new Bias Incidents and Actors Study 
(BIAS) dataset conformed to the ideological tenets of violent 
far-right extremism, broadly defined.
    The composition of far-right targets has changed, with 
anti-immigrant and anti-Muslim attacks increasing in frequency. 
Over the last 10 years of data, 22 percent of violent far-right 
offenders were motivated at least partly by anti-immigrant or 
anti-Muslim sentiment compared to only 3 percent in the 10 
years prior, and this percentage spiked to 37 and 38 percent in 
2016 and 2017, respectively.
    Now, despite the fact that more domestic terrorists are 
arrested than HVEs in gross numbers, 62 percent of far-right 
offenders and 78 percent of far-left terrorists succeeded in 
their violent plots compared to only 22 percent for HVEs. This 
is due to a combination of pragmatic and political factors that 
collectively reduce resource allocation to domestic terrorism.
    There are several challenges to the U.S. Government's 
ability to maintain, share, analyze, and make public data on 
U.S. persons involved in domestic extremism. I will share just 
three of them.
    One set of challenges emerges because domestic terrorism 
and international terrorism are handled separately within and 
between executive branch agencies and departments, leading to 
bifurcated threat assessments, bifurcated situational 
awareness, which undermines risk assessments and rational 
resource allocation decisions. To reflect reality, violent 
extremism has to be understood, and data has to be collected 
globally.
    The second set of challenges results from the civil rights 
and civil liberties protections that the Constitution affords 
us. The U.S. Government is limited in its ability to maintain 
data on ideologues, propagandists, and recruiters, for example, 
who are not acting in violation of current law. Researchers 
outside of the government are often better able to examine 
domestic extremist movements as a result.
    Now, the FBI Counterterrorism Division maintains high-
quality data on individuals under investigation and uses that 
data to manage risk across their portfolio of both domestic and 
international investigations. That information is highly 
granular, but there are limitations to how broadly case 
information on known or suspected domestic terrorists can be 
shared outside of the FBI. That information is not included in 
our interagency watchlisting efforts, for example.
    The next set of challenges speaks to a criminal's journey 
through the criminal justice lifecycle. There has historically 
been a breakdown of information, once these perpetrators enter 
the correctional system and again when they exit the 
correctional system.
    The final set of challenges speaks to politics. Given the 
inherently political nature of terrorism, defining, tracking, 
and reporting data on terrorism is subject to biases, subtle 
pressures, or even manipulation.
    It is clear that domestic terrorism, and specifically far-
right extremism, require greater attention and resource 
allocation. This is not to say that the U.S. Government should 
replicate its response to HVEs as it responds to domestic 
terrorism.
    Congress should pass the Domestic Terrorism Documentation 
and Analysis of Threats in America (DATA) Act or similar 
legislation, including the continued funding of unclassified, 
objective, and longitudinal data collection and dissemination 
through the DHS Centers of Excellence apparatus. That language 
was stripped out of the House Homeland Security version of the 
bill, and it should be reinserted.
    The Homeland Security Grants Program, responsible for 
things like Urban Areas Security Initiative (UASI) grants, 
should incorporate these objective data.
    The U.S. Government should scale up the DHS Office of 
Targeted Violence and Terrorism Prevention and specifically 
replicate the program being run out of Denver quite quietly 
which has succeeded in over 40 interventions, many of which 
deal with the violent far right.
    The government should take a public health approach to 
violence prevention and invest in programs that build community 
resilience, programs that foster non-criminal justice 
interventions for at-risk individuals, and programs that foster 
rehab and reintegration for domestic extremists. A parallel 
grants program to the Homeland Security Grants Program should 
be run out of an organization like the Department of Health and 
Human Services (HHS) to support these public health programs.
    Thank you.
    Chairman Johnson. Thank you, Professor.
    Our next witness is Clint Watts. Mr. Watts is a 
distinguished research fellow at the Foreign Policy Research 
Institute and a senior fellow at the Center for Cyber and 
Homeland Security. A graduate of the U.S. Military Academy, he 
began his career as an infantry officer in the U.S. Army. Mr. 
Watts later became a Special Agent in the Federal Bureau of 
Investigation where he was part a Joint Terrorism Task Force 
(JTTF). After leaving the FBI, he served 1 year as executive 
officer at West Point's Combating Terrorism Center and returned 
to the FBI as a consultant from 2007 to 2009, when he advised 
the Counterterrorism Division and National Security Branch. Mr. 
Watts.

  TESTIMONY OF CLINT WATTS,\1\ DISTINGUISHED RESEARCH FELLOW, 
               FOREIGN POLICY RESEARCH INSTITUTE

    Mr. Watts. Chairman Johnson, Ranking Member Peters, and 
Members of the Committee, thanks for having me here today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Watts appears in the Appendix on 
page 79.
---------------------------------------------------------------------------
    Today both international terrorists and domestic terrorists 
congregate, coordinate, and conspire online, often without 
having any direct connection or physical interactions with a 
terrorist organization or fellow adherents.
    Domestic terrorists differ from international terrorists in 
two critical ways that vex law enforcement efforts. First, 
domestic terrorists, for the most part, do not operate as 
physical, named groups in the way that al-Qaeda and the Islamic 
State have in an international context. And, second, law 
enforcement pursues domestic terrorists via different rules and 
structures separate from international terrorists. 
Investigators must pass higher thresholds to initiate 
investigations and have fewer tools and resources at their 
disposal. In sum, domestic counterterrorism remains 
predominantly a reactive affair in which investigations respond 
to violent massacres and then pursue criminal cases.
    There is more to discuss than I can capture during these 
brief opening remarks, but I will focus on what I believe to be 
critical gaps in countering domestic terrorists.
    First, if we cannot define the threat, then we cannot stop 
the threat. Countering al-Qaeda and the Islamic State is no 
easy task, but foreign terrorist organization (FTO) 
designations allow law enforcement to pursue investigations 
according to the Attorney General (AG) Guidelines, organize 
their agencies and allocate resources, centrally manage cases 
across the country helping connect associated perpetrators and 
plots, and measure investigative performance and return on 
investment.
    Without a designation by group or violent ideology and the 
pursuit of investigations limited to criminal codes, nationwide 
we are essentially just pursuing cases as individual one-off 
cases, maybe not recognizing the collaboration and 
communication that goes on in the online space.
    Second, if we do not understand the threat, we cannot 
defeat the threat. After 9/11, agencies dramatically increased 
their staffing of intelligence analysts and committed research 
funds for understanding terrorist ideologies helping to 
identify key influencers, ideological justifications for 
violence, and radicalization pathways for those enticed to join 
terrorist groups.
    With domestic terrorism, threat knowledge comes anecdotally 
from the experience of the most seasoned investigators. Few if 
any personnel and resources can establish a collective picture 
of which violent ideologies perpetrate violence, why they do 
it, and how they overlap, which I think is particularly 
significant today.
    If we cannot see the threat, then we cannot preempt the 
threat. To reduce the frequency and scale of international 
terrorism in the United States, we sought to connect the dots 
between extremists through all source analysis and targeted 
outreach with community partners and online interventions.
    In the online space, Federal agencies might look to rapidly 
increase their partnerships with groups like Moonshot 
Countering Violent Extremism (CVE) which employs innovative 
approaches for spotting and engaging vulnerable individuals via 
social media in both international and domestic contexts. 
Similarly, terrorism task force officers should extend their 
``See Something, Say Something'' strategies to domestic 
terrorism threats and create community partner engagement 
strategies with nongovernmental groups.
    Fourth, if we do not resource the defenders, we will keep 
losing to the offenders. International terrorist threats 
brought about a whole-of-government approach by which Federal 
resources created terrorism task forces synchronizing 
information sharing and actions across the country to defeat 
distributed terror networks. We have intelligence fusion 
centers stretched across the country designed to detect 
international terrorism that now seek out more missions. The 
Federal Government could lead the way to not only help State 
and local law enforcement do more than simply respond to 
attacks, but also help them to employ effectively their 
manpower and resources for preempting domestic terror attacks.
    And, finally, my fifth point I really would like to stress 
is if we only look at what is happening in the United States, 
we will miss the dangerous global connections that are 
currently occurring around the world. Our homegrown terrorists, 
at times, appear to be lonely, but they are not alone in their 
motivations, and their connections extend far beyond U.S. 
borders. Over the last decade, we worried about the global 
networking, State sponsorship, and facilitation of jihadist 
terrorism.
    Today we should worry equally about foreign connections and 
influences on domestic terrorist threats. The social media 
posts and manifestos of recent domestic attackers point to the 
international inspiration and global connections of violent 
ideologies. These connections extend beyond the Internet 
leading to physical movement across international boundaries to 
attend training or execute attacks.
    In Sweden, two of three bombers from the Nordic Resistance 
Movement received military training in Russia before returning 
home to attack. The Christchurch mosque attacker was not from 
New Zealand but Australia. And just this week, the FBI 
conducted an arrest of an individual in Kansas, at Fort Riley, 
Kansas, who wanted to travel overseas to join a ``militant 
group,'' as one way to define it.
    So, in conclusion, with these remarks I have only addressed 
gaps that I believe, if closed, would reduce the frequency of 
domestic terrorist attacks. These remarks do not address how we 
could reduce the impact, the number of dead and wounded, 
arising from each domestic or international attack.
    Thank you for having me here today, and please accept my 
full remarks into the record.
    Chairman Johnson. They will be entered in the record,\1\ as 
everyone's will.
---------------------------------------------------------------------------
    \1\ The prepared statements of the Witnesses referenced by Senator 
Johnson appear on pages. 47, 79, 84, and 98.
---------------------------------------------------------------------------
    Thank you, Mr. Watts.
    Our next witness is Professor Robert Chesney. Professor 
Chesney is the James A. Baker III Chair in the Rule of Law and 
World Affairs at the University of Texas at Austin School of 
Law. He is also the co-founder of the Lawfare blog and a 
prolific author on legal issues and national security policy. 
Professor Chesney is a graduate of Harvard Law School. 
Professor Chesney.

TESTIMONY OF ROBERT M. CHESNEY,\2\ JAMES A. BAKER III CHAIR IN 
THE RULE OF LAW AND WORLD AFFAIRS, AND DIRECTOR, ROBERT STRAUSS 
CENTER FOR INTERNATIONAL SECURITY AND LAW, UNIVERSITY OF TEXAS 
                    AT AUSTIN SCHOOL OF LAW

    Mr. Chesney. Thank you, sir. Chairman Johnson, Ranking 
Member Peters, distinguished Members of the Committee, thank 
you for the opportunity to appear before you today to talk 
about this important topic.
---------------------------------------------------------------------------
    \2\ The prepared statement of Mr. Chesney appears in the Appendix 
on page 84.
---------------------------------------------------------------------------
    I want to talk about the steps that might or might not be 
desirable as we work to increase the orientation toward 
prevention in the domestic terrorism context, and I want to do 
that by taking lessons by comparison to what we have done over 
the past two decades in the international terrorism context.
    As an initial matter, I think it helps to frame our 
engagement with this issue by distinguishing among some broad 
categories of how we might alter what we are currently doing.
    First of all, we have the authorities we use to 
incapacitate threats, and in the domestic terrorism setting, we 
are mostly there talking about the charging options that are 
available to prosecutors and bases for arrest. But let me 
flag--and here I am drawing a lot on the recent experience we 
have had in Texas where I have had some involvement in our 
State's response to the tragedy in El Paso. We need to keep one 
eye on the potential for early stage interventions that are not 
criminal in nature, and here I will reference my colleague 
Professor Braniff's remarks.
    There are things in the nature of wellness checks and other 
more aggressive measures that when a family member or friend of 
a person who is disturbed and the family member or friend can 
tell that this person may be dangerous, there are ways of 
conducting threat assessment that the Secret Service, among 
others, trains local law enforcement on. We need to support and 
surge resources toward that training to make sure that every 
State is thoroughly organized and equipped to be able to take 
advantage of that information in advance of harm occurring, in 
any event, capacities or authorities to intervene, to 
neutralize the threat a dangerous person poses.
    Second, separate but related to that, investigative 
authorities. Do investigators have the right tools?
    And then, third, distinct from both of those, resourcing 
both in terms of personnel, financial resources, and the policy 
will at all levels of the relevant institutions to make sure 
that the line officials, the agents and the line prosecutors, 
fully understand the range of things that existing law already 
enables them to do if they are ready to commit to certain 
approaches.
    A few notes on each of these things.
    First of all, it is important to underscore that we do have 
Federal terrorism statutes, and I mean parts of Title 18, 
Subchapter 
113B-Terrorism, that are applicable in the domestic terrorism 
context. It is often said that we do not have a domestic 
terrorism law. We do not have one as such. We do not have a 
single statute that says everything, however conducted, that 
counts as domestic terrorism is a Federal offense. But we do 
have a lot of more specific terrorism-labeled laws that are 
applicable, and the one I will highlight here, although it is 
only one, is the so-called weapons of mass destruction (WMD) 
law, which sounds really narrow. It is terribly mislabeled. It 
covers ordinary explosives. It can be used and has been used in 
a number of cases, and I will cite the recent conviction of 
Cesar Sayoc, who tried to send mail bombs with nails in them. 
He was convicted under this, among other charges.
    So we do have some such statutes. Where is the gap, then? 
When it comes to conduct, the gap has to do with attacks on 
non-Federal personnel where the weapon of choice is a gun, an 
edged weapon, or a vehicle--things that are not explosives. 
That gap can and should be closed. I think the best argument 
for closing it is to assert the moral equivalence or perhaps 
the equal immorality of political violence. As the Chairman 
said, regardless of the ideological background, political 
violence is unwelcome and intolerable in our system.
    Skipping ahead to the topic of designated domestic 
terrorist organizations, because we have the foreign 
designation process, I am against creating a formal system of 
this kind for a number of reasons.
    First, I will mention the constitutional can of worms that 
would open up under the First Amendment. Now, I am happy in the 
question and answer (Q&A) to go into that in more detail.
    Second, the thought experiment of imagining the capacity to 
designate a group being in the hands of officials who may be 
from whatever is the opposite ideological orientation or 
political orientation you may have, it is a Pandora's Box we do 
not want to get into unless the use case for doing so is 
clearly enough established. I think the use case for doing so, 
the best we can say is it would certainly provide a broad basis 
to clarify investigative and arrest authorities and prosecution 
authorities, but I think we can get there without opening this 
particular Pandora's Box.
    Last, a few quick words on investigative authorities. The 
Attorney General Guideline revisions in 2002 and 2008, which 
were controversial at the time, expressly aimed to open the 
door to more proactive prevention-oriented terrorism 
investigations. I think if we have a problem here, it is that 
not enough officials are fully aware of what they do permit, 
and we might need to press to make sure that more advantage is 
being taken of those existing frameworks.
    Thank you.
    Chairman Johnson. Thank you, Professor Chesney.
    Our final witness is George Selim. Mr. Selim is the senior 
vice president of programs for the Anti-Defamation League (ADL) 
where he oversees ADL's Center on Extremism and is responsible 
for its education, law enforcement, and community security 
programs. Prior to joining ADL, under President Obama Mr. Selim 
was the first Director of the Department of Homeland Security's 
Office for Community Partnerships (OCP), where he also led the 
Federal Countering Violent Extremism Task Force. Mr. Selim also 
served on President Obama's National Security Council staff, as 
a Senior Policy Adviser at DHS' Office of Civil Rights and 
Civil Liberties, and at the Department of Justice. Mr. Selim.

    TESTIMONY OF GEORGE SELIM,\1\ SENIOR VICE PRESIDENT FOR 
           NATIONAL PROGRAMS, ANTI-DEFAMATION LEAGUE

    Mr. Selim. Mr. Chairman, Ranking Member Peters, Members of 
this distinguished Committee, good morning, and thank you for 
allowing me the opportunity to testify today. As mentioned, my 
name is George Selim. I serve as senior vice president of 
programs at the ADL, and it is an honor to be with you this 
morning.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Selim appears in the Appendix on 
page 98.
---------------------------------------------------------------------------
    For decades, ADL has fought against anti-Semitism and 
bigotry in all forms by exposing extremist groups and 
individuals who spread hate and incite violence.
    Today ADL is the foremost nongovernmental authority on 
domestic terrorism, extremism, hate groups, and hate crimes. I 
have personally served in several roles in the government's 
national security apparatus, at the Departments of Justice, 
Homeland Security, and at the White House on the National 
Security Council staff. And I am now at ADL where I oversee 
these efforts to investigate and expose extremism across the 
ideological spectrum.
    In my testimony, I would like to share with you some key 
data and analysis on the threat of domestic terrorism as well 
as identify some significant gaps in current policy and 
practice that, if closed, could better equip the government to 
counter this threat.
    Understanding the threat of domestic terrorism requires us 
to look at the threat of white supremacy. Three of the five 
deadliest years of murder by domestic extremists in the period 
between 1970 and 2018 were in the past 5 years. Of the 50 
murders committed by extremists last year, 78 percent of those 
were tied to the threat of white supremacy.
    In the past decade, 2009 through 2018, the majority of the 
427 people killed by domestic extremists were killed by white 
supremacists. In the last year alone, we have seen mass murder 
after mass murder targeting Jews, Muslims, Latino, and other 
immigrant communities at the hands of white supremacists that 
were radicalized and lauded online--on the open Net.
    Unfortunately, in the last 2 years, resources have shifted 
away from these threats. The limited information provided by 
this Administration makes it difficult to determine the known 
prevalence of domestic terrorism and what the government is 
really doing to prevent it.
    What we do know is that this Administration is currently 
not doing enough. Greater transparency is critical to 
understanding what the policy challenges are, and just as 
significantly, accurate reporting on the threats to communities 
can help lawmakers ensure that FBI, DHS, and other Federal 
agencies are applying investigative resources in line with real 
threats and not based on identity, political belief, or other 
categories.
    At DHS I served as the Director of the Interagency 
Countering Violent Extremism Task Force and the Director of the 
Community Partnerships Office. Both of these offices provided 
support to State, local, and community groups and provided 
resources to help prevent and intervene in the process of 
radicalization to violence. The staffing and funding for these 
efforts has been significantly reduced or completely eliminated 
in the past 3 fiscal years.
    Last week, DHS released its new Strategic Framework for 
Countering Terrorism and Targeted Violence, which called out 
the heightened threat environment of domestic terrorism, 
specifically including the threat from white supremacy. The 
forthcoming steps of a concrete implementation plan and 
associated funding request will be the ultimate test as to 
whether or not this framework will succeed or fail.
    Looking ahead, ADL's top request is for our Nation's 
leaders to always use and speak out clearly and forcefully and 
call out anti-Semitism and bigotry in all forms at every 
opportunity. Beyond that, policy gaps that must be addressed 
include:
    Increased collection and reporting of data on extremism and 
domestic terrorism by the Federal Government. As the Chairman 
mentioned, we cannot address what we cannot measure.
    Resourcing the threat. Federal offices across the Executive 
Branch that address domestic terrorism should be codified into 
law and must be provided resources commensurate with the threat 
today and at a scale that can be impactful.
    Prioritizing reporting and the enforcement of hate crimes 
laws, the key precursors to white supremacist terrorism, and 
empowering local communities to be part of that solution 
nationwide.
    Supporting civil society, academic institutions, and the 
private sector to step up and play meaningful roles where the 
government cannot or should not.
    And, undertaking an examination of whether overseas white 
supremacist groups meet the foreign terrorist organization 
designation criteria.
    In conclusion, white supremacy is a very real and very 
deadly threat to our homeland. This is an all-hands-on-deck 
moment to protect our communities. Solutions will require a 
whole-of-government, whole-of-society impact, and ADL stands 
ready to serve as a constructive partner as this Committee and 
Members of this Congress explore these issues.
    Thank you for your time this morning.
    Chairman Johnson. Thank you, Mr. Selim.
    I am going to defer my questions except for one because I 
think it will help our questioning. Have any of you taken a 
look at what DHS has published now? And if so--who has looked 
at it? OK. So for the Committee Members, realize that all the 
witnesses have reviewed what DHS just published, and, again, 
from my standpoint, having read the testimony, having read 
this, things really dovetail quite nicely here. So it looks 
like the Department is moving in the right direction. We can 
talk about resourcing, emphasis, that type of thing, 
prioritization. But to me, the timing of this hearing, the 
timing of this release is working out nicely, and it seems like 
we are moving in the right direction. We are acknowledging the 
same things, and we just have to develop that data, which we 
are trying to work on a piece of legislation to codify, as you 
said.
    But, with that, Senator Peters.
    Senator Peters. Thank you, Mr. Chairman. And thank you to 
each of our witnesses for your testimony here today and for 
your presence.
    Certainly, as I think we have reiterated many times 
already, our domestic terrorism resources and priorities should 
be based on an accurate assessment of the threat and really a 
frank assessment of the facts on the ground.
    My first question to you, Mr. Selim: What is the deadliest 
domestic terrorism threat currently facing Americans? What 
should Americans know?
    Mr. Selim. The ADL has been tracking and monitoring all 
forms of extremism across the ideological spectrum for over 
three decades. We assess that today, based on publicly 
available, open-source data, the deadliest threat to the 
American homeland is the threat of ideologies that are 
associated with white supremacy, white nationalism, and the 
data to back that up is that over the past decade more American 
lives--specifically 73 percent of the murders and homicides 
committed in the homeland are associated with white supremacist 
ideology.
    Senator Peters. Mr. Braniff, what is your assessment of the 
deadliest domestic terrorism threat currently facing Americans?
    Mr. Braniff. Ranking Member Peters, our data also looks 
across ideologies, and we do not use predetermined ideological 
categories, meaning we look for behaviors first, and once a 
behavior meets the threshold for inclusion, we then look at the 
ideological motivations, which means we are able to identify 
new and emergent trends and not just be wedded to a previous 
understanding of what does or does not constitute terrorism.
    We would also demonstrate via our data sets that violent 
white supremacists are the most active of the ideological 
groups in the United States in terms of violence by just about 
every empirical metric. The one exception would be fatalities 
per attack. Regarding fatalities per attack, Muslim extremists, 
those inspired by al-Qaeda or the Islamic State are marginally 
more lethal. But by every other measure, including the total 
number of individuals killed or injured, it is the violent far 
right, and I do fully appreciate how unsatisfactory these large 
umbrella categories are, but within the violent far right, the 
white supremacist movement.
    Senator Peters. President Trump has spoken of immigrants 
``invading'' and ``infesting'' our country. Both the El Paso 
and Tree of Life mass murderers used that very language in 
announcing their imminent attacks.
    Mr. Selim, what is the impact of having a President using 
this sort of rhetoric?
    Mr. Selim. Ranking Member Peters, thank you for your 
question. What we know is that when rhetoric like the form you 
mentioned is used by the President of the United States or any 
public figure, it is lauded and echoed and repeated over and 
over again by individuals online and offline who are openly 
bigoted and individuals who espouse an ideology of white 
supremacy or white nationalism.
    The most important point here is that in times of crisis 
and in times of division, leaders need to lead, and whether you 
are the President of the United States or the president of the 
Parent Teacher Association (PTA) in your hometown, it is 
incumbent on leaders to use the bully pulpit to forcefully 
speak up and stand up when it comes to that form of bigoted or 
biased rhetoric that can tear communities apart and not pull 
them together.
    Senator Peters. DHS told us that they ``do not track 
statistics'' regarding the number of people killed and injured 
in the United States by domestic terrorist attacks. And they 
said that they do not have ``firm statistics'' on personnel and 
resources used to combat domestic terrorism. The Department of 
Justice and the FBI have provided no response to multiple 
inquiries that the Chairman and I have made. So either this 
Administration is unable or it is unwilling to provide some 
basic data about domestic terrorist threats.
    So again to you, Mr. Selim, is the government capable of 
providing this information? You certainly provided an awful lot 
of information in your testimony. What is going on here?
    Mr. Selim. Senator, I can say based on firsthand 
experience, having managed and overseen both the interagency 
group and the office at DHS that was tasked with executing this 
specific mission that we are talking about today, it is 
absolutely possible to gather with a pretty good degree of 
specificity the number of Federal employees--within the 
Department of Homeland Security I can speak to--that are 
executing a piece or part of this mission as outlined in the 
framework that was released last week and that the previous two 
Administrations used to guide their work. It is something that 
I did as the Director of that office and certainly something 
that the Department has the means through which to provide this 
Congress based on my experience having done so several years 
ago.
    Senator Peters. In the absence of data, it is pretty 
difficult to prioritize, isn't it?
    Mr. Selim. It is extremely difficult to prioritize. It 
starts with the implementation of the strategy that the 
Chairman alluded to and associating appropriate staffing 
levels, resource dollars, and prioritization to drive such a 
strategy on a week-in and week-out basis all year long.
    I should note that until this past Friday no such strategy 
governed DHS or the interagency's work in this regard. While 
the strategy released on Friday is specific to the Department 
of Homeland Security, it does not apply to the interagency or 
other parts of the Federal family that have relevant equities 
in this issue. My hope is that the Administration would look 
more broadly for a whole-of-government approach on these 
issues. But to date, this is an important starting point, as 
the Chairman noted, and my hope is that this Administration 
continues to build on that momentum.
    Senator Peters. Every community across the Nation obviously 
deserves to be kept safe from acts of terror or violence, and 
no one, no matter who they are, no matter where they live, 
should fear being attacked in their neighborhoods or at their 
neighborhood store or in houses of worship.
    Mr. Chesney, my question to you: What are some of the 
concerns of impacted minority communities related to the 
expansion of governmental authorities to combat domestic 
terrorism? What have you been hearing?
    Mr. Chesney. As you noted in your opening remarks, sir, 
there is a challenge that arises when there is a particular 
identifiable group or set of individuals that the government 
decides to start intervening to investigate with an eye toward 
prevention, where on one hand there is a huge benefit in trying 
to get information from people in contact with persons who 
share the ideology that is in question, or whatever it may be, 
and so there is an effort to get into that community and 
sometimes use of undercover informants, monitoring of events 
taking place in public, attending those 
events and so forth. And while that makes a lot of sense as a 
strategy--indeed, is arguably one of the most critical 
strategies for finding out in advance of an attack what is 
happening--the historical record shows it does tend to carry 
with it a bit of a negative reaction from communities that may 
feel--fairly or unfairly, but nonetheless subjectively they may 
feel that they are being tarred with too broad a brush.
    There is no silver bullet solution to this. It is an 
important investigative approach. It carries with it offsetting 
dangers, and it has to be handled very carefully.
    Senator Peters. Thank you.
    Chairman Johnson. Before I turn it over to Senator Portman, 
again, data is going to be important. We need to be very 
accurate.
    Mr. Selim, I just want to clear up--you said 73 percent of 
murders were caused by white supremacists. Now, I talked about, 
on average, 18,000 murders. So exactly what data set are you 
comparing it to? What number is 73 percent of?
    Mr. Selim. Sorry, Mr. Chairman. Let me just clarify that 
specifically. Of murders and homicides that were committed by 
extremists, not writ large in the American public----
    Chairman Johnson. And, again, that number is approximately 
what? You are taking 73 percent of what? Just give me the 
numbers. I mean, percentages are----
    Mr. Selim. Yes, 427.
    Chairman Johnson. Over?
    Mr. Selim. Over a decade-long period, 2009 through 2018.
    Chairman Johnson. OK. So 73 percent of that, about 300 of 
those were----
    Mr. Selim. Approximately.
    Chairman Johnson. OK. Again, I just want to make sure that 
we are dealing with actual numbers here.
    Mr. Selim. Correct.
    Chairman Johnson. Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. That would not include 9/11, then.
    Mr. Selim. No.
    Senator Portman. First, Mr. Chairman, thanks for holding 
this hearing. I think it is incredibly important, and I 
appreciate the witnesses and their expertise.
    I, as some of you know, have been focused on this issue of 
helping our nonprofits, particularly our religious communities, 
to be able to better defend themselves against domestic 
terrorism. It has been particularly difficult in the Jewish 
community because we have had a number of attacks. Synagogues, 
community centers, schools have been targeted. We have had some 
horrible incidents, as we had in Pittsburgh, and then exactly 6 
months to the day later in the San Diego area.
    We held an interesting conference back in Ohio about 2 
weeks ago, and it was on the whole issue of how to help prepare 
and to be more vigilant. We had folks there from the Hindu 
community, the Sikh community, the Muslim community, the Jewish 
community, the Christian community, and very well attended. The 
FBI was there to give a briefing, and that was quite eye-
opening. And, Mr. Watts, I want to talk to you about that if it 
is OK in a minute about what the FBI can and cannot do given 
your experience.
    We also talked about the Federal Emergency Management 
Agency (FEMA) Nonprofit Security Grant Program that Senator 
Peters and I have been very involved with and trying to get 
reauthorized, and we got the funding up a little last year. 
Ohio is using that program. Several of the faith-based groups 
have applied for and received help there. What they get help 
for is cameras and sensors and even armed guards now, which 
they could not get previously until recently when the 
Administration changed its view on that, but also just best 
practices. A lot of it is about just trying to understand how 
to be able to respond more quickly should something tragic 
happen. So, one, hardening the institutions, but, second, to be 
able to respond quickly and effectively.
    So I appreciate what FEMA has done in that area. We had DHS 
there. They had a lot of good information. People left, they 
told me, with a better sense of what they need to do.
    On the FBI front, one thing they said was it is actually 
difficult for them to investigate these kinds of cases. Someone 
goes online, for instance, and makes a credible threat of 
violence, and the FBI said that it is difficult for them to 
investigate all of those cases.
    Can you talk a little about that, Mr. Watts, and just 
operationally what happens when there is a threat online?
    Mr. Watts. Yes, I think a way to sort of think about it is 
how you would initiate a case. In the international 
counterterrorism context, even if you are State and local law 
enforcement, if you get an indicator that ties an individual as 
having sympathies or supporting al-Qaeda or ISIS, that would 
usually initiate an assessment, which would give you the 
ability to assign investigative leads to an actual case, ISIS-
inspired terrorism, al-Qaeda-inspired terrorism.
    Once that is assigned, you would then look for indicators, 
and it would be managed centrally across the FBI. So for those 
familiar with the FBI International Terrorism Operations 
Section (ITOS) would take that over. They would manage it. The 
investigators out in your community would go. They would look 
at open source. They would look at social media. They might 
even go interview the person depending on the circumstances. 
And then that would be tied into the national picture so that 
you could understand if there is any connection, sympathies, 
other indicators. And it could be elevated then to a 
preliminary inquiry and then a full field investigation based 
on the status of it.
    In a domestic context, I will give you----
    Senator Portman. Well, the first one with regard to ISIS or 
al-Qaeda or maybe some other specified groups, but 
international terrorism.
    Mr. Watts. Right, and here is a hypothetical example. I do 
not want to be too hypothetical, but someone has Osama bin 
Laden as their Facebook avatar or social media avatar. They say 
the infidels should be killed. That might trigger leads, which 
the FBI would respond to.
    Senator Portman. And on the domestic side?
    Mr. Watts. On the domestic side, take, for example, one of 
the shooters in any of these recent attacks is posting in the 
same way and it says we should kill all the invaders. That is 
not tied to any nationwide case. That might be, maybe, followed 
up as an assessment, but I doubt it because there is no 
specific crime. There is no designation around a violent 
ideology that opens a nationwide case. And it becomes very 
difficult for the FBI, or DHS, or even State and locals to 
understand what is the larger context of this picture. Are 
there global connections? Which we saw this week in one of the 
arrests that was undertaken. Are there other connections in 
these social media platforms that they are using that are 
increasingly more encrypted, more in the dark web pushed to the 
fringes? Which means human intelligence collection. It becomes 
very difficult not only to get a picture of that violent 
ideology, but to even have a reason, because it may be 
protected under the First Amendment, to investigate just 
through public records or to show up and do an interview of 
that person to really assess what their inclinations are toward 
violence.
    Senator Portman. So the big issue with regard to domestic 
terrorism is the protected speech and that line that is crossed 
sometimes and where does that line get drawn. Is it somebody 
saying hate speech generally? Or is it somebody saying, as an 
example, recently in Youngstown, Ohio, there was a credible 
threat, a specific threat as to the Jewish synagogue there and 
the community center. In that case, the FBI and local law 
enforcement was able to intervene.
    Where is that line? And where should it be drawn?
    Mr. Watts. As of right now, it is really drawn around is it 
specific to an actual location, a person, an incident. That is 
when the FBI triggers dramatically in that direction.
    However, if we had pursued that in the al-Qaeda-ISIS era, 
we would have sustained a large number of attacks, in my 
opinion, across the country because we would not have been 
preemptively trying to move out and penetrate into those 
networks.
    The line to me should be--I would like to see the FBI 
Director have the ability based on certain thresholds, open 
investigations, maybe incidents, tips and leads related to a 
specified violent ideology, to open a nationwide case such that 
investigators can then do their assessments without prying into 
people's personal information, minimum threshold, right? We are 
not actually going in and being intrusive, but we are looking 
to say is this person connected to other individuals that have 
concocted attacks? Are they talking about targeting in some 
sort of dark space on the Internet? Can we put these pieces 
together in a nationwide picture so we can actually go ahead 
and try and be preemptive rather than reactive?
    Senator Portman. My time is expiring, but I would say that 
I do not disagree with what you are saying. And I think you are 
right. I think we need to be more proactive to be able to 
preempt and to try to thwart some of these attacks.
    Many of these attackers are lone wolves, though, so you are 
not going to see a national thread necessarily, and I think 
some of the recent incidents of mass shootings as an example, 
where there does not seem to be a connection to a national 
group. So you would not want to preclude that as well, right?
    Mr. Watts. Correct. I think you have to establish a 
threshold based on the violent ideology. For example, where do 
they congregate? Think if this was in the 1990s. These 
individuals to do these associations would have to show up 
physically in a place, right? And that is what our laws are 
built for. We see people congregating. Maybe they are doing 
reconnaissance, weapons training, things like that. They are 
picking out targets.
    Today that all happens in the online space. There is no 
real tip or lead system for the public even to report on that 
because they have gone to a fringe platform that is maybe 
completely encrypted, totally offline, and they are 
communicating, they are associating. They are talking about 
what types of weapons to purchase or acquire.
    So we have to help law enforcement come up with a way to 
get to that space legally where they are also not infringing on 
people's freedom of speech.
    Senator Portman. I know this Committee is eager to get your 
input on it because you need to help us to be able to figure 
out is there a legislative role here and, if so, to help draw 
that line properly and help to protect--and I mentioned houses 
of worship and other faith-based organizations, but to protect 
all of us.
    Thank you for your testimony, everybody.
    Chairman Johnson. As long as we have started down this line 
of questioning, I do want to bring up--I believe it was Omar 
Mateen, the Pulse Night Club shooter.
    Mr. Watts. Yes.
    Chairman Johnson. I want to talk about the difficulty 
within a constitutional government about, again, the ``not 
guilty yet.'' There was an FBI investigation. It was, I think, 
undertaken for 6 months, but then because of Justice Department 
guidelines, when there was not enough ``there'' there, they had 
to--could you just quickly speak to that? And, again, this is 
the difficult issue. What do you do with the ``not guilty 
yet''?
    Mr. Watts. Yes, and I could probably add the Boston bombing 
case, as another example where oftentimes we do encounter these 
people. They are not a surprise necessarily to law enforcement, 
particularly State and local law enforcement. They tend to 
know. But it really comes down to those initial assessments. If 
we cannot do those initial assessments--for example, someone 
calls in and says, ``My neighbor is really angry. He has been 
threatening to kill people or blow things up,'' but it is not 
specific to any location or event, the FBI or DHS really does 
not have anything to go on, right? They cannot even do that 
initial assessment. There is no nationwide violent ideology 
that it can be tied to.
    Chairman Johnson. Talk about the guideline that really 
requires you to stop an investigation even though you have been 
undertaking something for 6 months. Just talk about that.
    Mr. Watts. Sure. I am very dated on this. I have not been 
in the building since 2012. But there are specific periods--it 
is usually 90 days--in terms of your assessment. You have to 
show progress if it is a preliminary inquiry. You have a little 
bit longer with a full field investigation. But if you cannot 
actually show that there is some sort of movement toward it, 
the case oftentimes is closed or reduced. I think that is 
something to remember with this radicalization process. 
Sometimes people become radicalized right up to the point of 
violence. Then they stop or move back. And then years later, 
they can reaccelerate again. But that is really the important 
bridge about our community partnerships and our online 
interventions that we work with partnerships.
    So as I mentioned in my opening statement, we have those 
bridges. We have developed them. Bill and I worked together on 
this. George I have seen in the past. They have worked on these 
community partnerships which are who do we hand this off to. We 
see this person, they are extremely angry, they are not being 
specific, but they could mobilize later. How do we keep those 
tips and leads coming in? We have that for sure in the 
international context, and we have built that over the last 18 
years.
    In the domestic context, we do not necessarily have it, but 
we are starting to see it kind of naturally emerge, right? We 
will see in Youngstown. There was another case in Pennsylvania 
where somebody does call in a tip or lead, but that is kind of 
after the fact. They have seen lots of violence. We have not 
really built that out for a lot of these violent ideologies and 
even for mass shootings. School resource officers, in my 
opinion, are one of the most critical bridges across this, 
college campuses the same way. And even in terms of some of the 
other communities we could engage in a very civil way, this 
creates a lot of angst with some people. But gun advocacy 
groups would be a great bridge to say, hey, we want to protect 
your Second Amendment rights, but you have to help us identify 
people that maybe they are moving along the spectrum to 
violence so that we can interdict it. Timothy McVeigh would be 
a classic example of that.
    Chairman Johnson. But also First, Fourth, and Fifth.
    Mr. Watts. Right.
    Chairman Johnson. There are constitutional differences 
between what we can do with domestic versus international. 
Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chairman and Ranking Member, 
for having this hearing. Thank you to all of the witnesses for 
being here and for your expertise and commitment on this issue.
    Charleston 2015, Charlottesville 2017, Pittsburgh 2018, 
Poway 2019, Dallas 2019, Gilroy 2019, and El Paso 2019. These 
are just a few of the cities impacted by domestic terrorist 
attacks in recent years, and they all have one thing in common: 
None of the perpetrators of these attacks were under FBI 
investigation at the time of the attack.
    Earlier this year, FBI Director Christopher Wray told 
Congress that there is a ``persistent, pervasive threat''--his 
words--posed by white supremacist violence. I want to piggyback 
a little bit on what Senator Portman and Senator Johnson were 
just asking you, Mr. Watts. I have deep concerns that the 
Federal Government does not understand the full scope of the 
threat and, given current legal and resource constraints, is 
limited in its ability to prevent future attacks.
    Mr. Watts, you have written that, ``Short of violence or a 
fully approved domestic terrorism investigation, preventing 
white supremacist terrorist attacks becomes nearly impossible 
for investigators,'' and that is a little bit about what you 
have just been talking about. So that is obviously a startling 
revelation, and I just want to give you an opportunity to 
continue the discussion that we have just started. Can you 
expand on how current laws may constrain domestic terrorist 
investigations? And how do these constraints both impact the 
FBI's understanding of the threat and impact resources 
dedicated to preventing the threat?
    Mr. Watts. Yes, thanks, Senator. So there are a couple 
things to consider. One, without a designation or opening of a 
nationwide case----
    Senator Hassan. Right.
    Mr. Watts. So you could do that either--and he will be much 
better, Mr. Chesney, at explaining the legal parameters around 
that. But without a domestic terrorist organization designation 
or the opening of a nationwide case based on a violent 
ideology, there is no central repository to collect or even 
count on--or do counts, measure statistics. We have to rely on 
Bill and George to tell us statistics because there is nothing 
really to harness that information. It could be civil rights in 
one jurisdiction. It could be a domestic terrorism viewed 
threat in another or a firearms violation. So there is no way 
to really get your hands around what the scale or scope of the 
threat is.
    I actually go to outside researchers. Moonshot CVE does 
national maps. I could pick out jurisdictions. I think I have 
the map even here. I brought it with me. But I could go to 
these jurisdictions, and I would be like none of these red dots 
are surprises to me. We have had many cases over the years of 
violence.
    The same thing in the online space. I could tell you there 
is a significant white supremacist threat after Christchurch 
just in terms of the online uploads of that video.
    Senator Hassan. Right.
    Mr. Watts. 1.2 million stopped at the time of upload, I 
think, at Facebook; 300,000 more were taken off. I call it the 
``iceberg theory.'' That means under the surface you have a 
massive support network online around the world and in the 
United States that is helping boost that ideology, which is 
going to further increase the pace of attacks, which is 
directly what you are talking about with those incidents.
    It also creates commonality around targets, so synagogues, 
African American churches, mosques, Hispanic locations with a 
Walmart. Those all have commonalities because the movement now 
collectively is starting to direct in terms of the targeting.
    The problem for the FBI is, without some sort of 
designation or some nationwide case, there is no way for 
analysts or even investigators to report centrally in. When I 
was a brand-new agent, we would report all Sunni violent 
extremism to one operational analytical unit. They would then 
analyze it. They would make connections and parse out leads to 
other investigators. At this point it is almost impossible for 
a domestic terrorism investigator in the FBI or DHS who is out 
there on their own to really piece it together. They almost 
have to do it in a grassroots way throughout the organization. 
So there has to be some sort of designation and measurement, 
but also to help those investigators be more preemptive.
    I think the other part is we know where they are at, right? 
It is not just these locations. It is Gab. It is Telegram. And 
if I were trying to close on those, I would not ask anybody in 
government. There are researchers outside in public that I 
would go to that could tell me exactly what is going on in 
those environments. I feel like the Federal investigators are 
way more limited in that regard.
    Senator Hassan. That is helpful, and I am going to submit 
for the record\1\ a question to you too about the way we could 
improve information sharing, State, local, Federal, similar to 
what we do do for foreign terrorism.
---------------------------------------------------------------------------
    \1\ The questions from Senator Hassan appears in the Appendix on 
page 159.
---------------------------------------------------------------------------
    But I wanted to turn to Mr. Chesney because you had 
referenced him, Mr. Watts, about the legal impediments we have 
that make it so hard for us not only to gather the information 
but then to really prevent this kind of terrorism. I would just 
like you to expand on your previous answers and help us 
understand that.
    Mr. Chesney. Thank you, Senator. I would argue that it is 
not really a legal constraint. It is a question of commitments. 
It is cultural perceptions within the agencies about what is in 
scope, what is out of scope, and so forth. And here is why I 
say that. Maybe we should disaggregate the problems a little 
bit. One of the questions is: Can we get the national 
coordination that we need to have in some though definitely not 
all cases, but in some cases? There is not a legal obstacle to 
doing that, I believe. There is nothing in the Constitution 
that would preclude that. I do not think we have any statutory 
obstacles.
    Senator Hassan. Right.
    Mr. Chesney. It is an internal organizational question 
about----
    Senator Hassan. I think what I am trying to get at, though, 
is in your testimony you have indicated that there are gaps in 
terrorism law that impact domestic terrorism charges. So can we 
focus on that?
    Mr. Chesney. Sure. OK. So setting aside investigation.
    Senator Hassan. Yes.
    Mr. Chesney. I argue in my testimony, in my remarks, that 
we should close the gap in the scope of substantive Federal 
criminal law to reach gun-based terrorist attacks that would 
have been, if carried out with explosives, within the scope of 
the so-called and misnamed WMD statute. That is the major gap. 
I also argue that actually the scope of Federal criminal law is 
much broader in this area than many people appreciate already.
    Senator Hassan. OK. That is helpful. I have more questions, 
but with only 30 seconds, I think I will turn it back to the 
Chair.
    Chairman Johnson. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Some of us wanted to hear those other 
questions, but I will go ahead.
    Our thanks to all of you for joining us today. My thanks to 
our Chair and to our Ranking Member for pulling this together.
    It was not that many years ago--I think it was 2016--that 
the Chairman and I worked with the Department of Homeland 
Security and stakeholders on a bill to address violent 
extremism, and our legislation would have done a number of 
things. It would have created an Office for Partnerships 
Against Violent Extremism, as Mr. Selim will recall, within the 
Department of Homeland Security.
    Building on Mr. Selim's work in the Obama Administration, 
our bill would have established an office reporting directly to 
the Secretary to lead the government's efforts to counter 
violent extremism. And, further, our bill would have put in 
place important accountability measures to protect civil rights 
and civil liberties and ensure congressional oversight of 
Administration efforts to counter violent domestic terrorism.
    That bill passed out of this Committee. I think it was on a 
voice vote, but it passed without opposition, as I recall, over 
2 years ago, but it was not taken up by the full Senate. Since 
then, the current Administration has rescinded grants 
administered by that office, cut its budget, renamed it not 
once but twice, and created additional reports between the 
Director and the Secretary.
    Now, I would just ask you, Mr. Selim, could you just share 
with us today some of your thoughts, please, on the need for 
congressional oversight of Administration efforts to counter 
domestic terror and violent extremism? And the second half of 
my question would be: Do you think that statutory 
authorization, including strong reporting requirements such as 
were required in our bill, are a good first step?
    Mr. Selim. Senator Carper, thank you for your question, and 
I am grateful for the opportunity of having appeared before 
both you and Chairman Johnson before on this specific issue, 
and I appreciate the diligence and the sincerity which you and 
other Members of this Committee have given this over the years. 
So thank you for your question. I think it reflects some of the 
history that you and this Committee have brought to this issue 
specifically.
    Two initial points to start to answer your question. It is 
important to point out, as a number of Members of this 
Committee have noted already, data drives policy, and it is so 
important when we are making policy in the homeland security or 
in the national 
security space to have the data that drives and depicts the 
accurate--the threat or risk that we as a country face.
    One of the pieces of legislation that is pending right now 
that would support achieving a clearer picture is the DATA Act 
that I think is pending before both the House and soon to be 
the Senate. This is a key piece of legislation that I think can 
fill some of the critical gaps, and I would urge this Committee 
to help----
    Senator Carper. There have been several DATA Acts, even in 
recent years. Do you recall the prime sponsors in the Senate?
    Mr. Selim. I will put that in my written response if that 
is OK, Senator.
    Senator Carper. Thanks.
    Mr. Selim. I have it here in my notes, but I do not want to 
waste too much of your time.
    The second thing to address your question specifically is a 
pending piece of legislation currently titled the ``Domestic 
Terrorism Prevention Act.'' This does, again, what a number of 
Members of this Committee have noted in terms of codifying into 
law the resources tailored to the threat picture today. As this 
Committee attempted to do several years ago and is interested 
in engaging on again today, having an accurate picture to make 
data-driven policy and programmatic decisions, coupled with 
statutory appropriations and authorizations of offices that 
require reporting on an annualized basis, can help give this 
Committee and this Congress a better sense of where these 
trends are going year in and year out and where resources can 
be more accurately applied.
    Senator Carper. Alright. Thanks very much.
    Mr. Braniff, a question for you, if I could. Tragically, in 
recent years we have seen an increase in targeted violence, 
especially gun violence perpetrated in our country. In horrific 
instances, we have seen domestic terrorist attacks against 
minorities. They have occurred against people of color in 
Charleston, South Carolina, against immigrants in El Paso, 
Texas, last month, and against religious groups in places of 
worship such as mosques all around our country and in 
synagogues and any number of places from Poway, California, to 
the Tree of Life synagogue in Pittsburgh, Pennsylvania.
    Mr. Braniff, you lay out your extensive data graphs in your 
testimony highlighting the rise of domestic terrorism in the 
United States, looking back I think as far as the 1970s. And we 
have seen these attacks surge in just the last couple of years. 
Could you just highlight for us what you believe to be the main 
reasons for the most recent spike in domestic terrorism in this 
country? The main reasons for the most recent spike in domestic 
terrorism in this country.
    Mr. Braniff. Thank you, Senator Carper. We should note that 
domestic terrorism is a persistent threat in the United States, 
so there has been an uptick in recent years, but it is not like 
it came out of nowhere. There is a very large population of 
individuals who have espoused violence to advance a political 
agenda in the United States, and that is more of an enduring 
fact than a recent trend.
    In recent years, we have seen an uptick in violence 
emerging from those extremist movements, and I think there are 
probably a host of reasons. We are talking about political 
violence, and political violence and politics are interrelated. 
That is uncomfortable and true. There appears to be an 
emboldened movement in the United States over the last several 
years, and we see things like targeting preferences shift 
according to political rhetoric. So the anti-immigrant verbiage 
or political rhetoric is reflected in anti-immigrant targeting.
    We also see social media or online platforms that enable 
the most virulent of these individuals to find each other 
online and to exacerbate one another's tendencies. Researchers 
might call this the ``gamification of violence,'' where one 
individual seeks to one-up another that he or she has never 
met, but tries to get a higher body count in their next violent 
attack. This kind of deviant behavior facilitated online allows 
individuals to group-think themselves into greater and greater 
levels of violence.
    You are correct in your question when you referenced 
firearms. The availability of firearms, although that is not 
new, is interrelated with the level of violence, and we see in 
the United States by far firearms are involved in most lethal 
terrorist attacks--and the most lethal terrorist attacks 
involve firearms.
    Senator Carper. Thank you for, I thought, an excellent 
answer to a pretty good question. Thank you.
    Chairman Johnson. Senator Rosen.

               OPENING STATEMENT OF SENATOR ROSEN

    Senator Rosen. Thank you to Senators Johnson and Peters for 
holding this important hearing, and I want to thank the 
witnesses, of course, for being here today to talk about this 
incredibly important and extremely challenging issue.
    And so the recent rise of extremism and domestic terrorism 
we know is a serious threat. We have seen far too often across 
our Nation, from El Paso to Pittsburgh, from our houses of 
worship to our schools, and it requires a concerted effort on 
the part of Congress and our State and local partners.
    As I said in last week's Commerce Committee hearing on 
online extremism, however, we cannot ignore the fact that the 
absence of sensible, common-sense gun safety measures like 
background checks is allowing hate-filled individuals who wish 
to commit acts of terror to access dangerous weapons far too 
easily.
    I hope that, alongside this important push for gun violence 
prevention, today's hearing on this rapidly evolving homeland 
security threat helps us better tackle this Nation's ongoing 
challenge with white supremacy, anti-Semitism, and other hate-
filled domestic terrorism.
    But I would like to turn to UASI reform for a moment. As we 
approach the 2-year anniversary of the October 1st shooting in 
Las Vegas--I represent Nevada; I live in Henderson, not very 
far from where the shooting was, as a matter of fact, the 
deadliest mass shooting in modern American history--we in 
Nevada are not only reminded of the pain our community felt but 
how the threat posed by mass violence is present now, and we 
hope not but possibly in the future.
    So despite this and despite the fact that Las Vegas had 
more visitors than any other year last year in history, the 
Department of Homeland Security's principal program for funding 
urban security, the UASI grant, does not take into account the 
unique 
challenges faced by a city like Las Vegas. The UASI funding 
formula--I want to explain this to you. If you have ever been 
to Las Vegas, we have the beautiful Las Vegas Strip, great 
downtown area. It treats those 30 major hotels, casinos, on the 
Las Vegas Strip as one entity. Our airport, of course, right 
next to where the shooter was on October 1st, another piece of 
critical infrastructure. We have a vast convention meeting 
space, all of them soft targets. Although we only have about 3 
million people in Nevada, about 2 million in Las Vegas, nearly 
50 million people come there each year. So between the Strip 
and downtown Las Vegas, over 100,000 hotels rooms, critical 
infrastructure.
    We have Hoover Dam, Nellis Air Force Base (AFB) just a few 
miles off the Las Vegas Strip, major data storage centers, our 
Nevada test and training range, and our Nevada national 
security site. So, in statute, UASI does not consider this.
    What I want to ask you is this, and whoever would like to 
take it, please feel free. How should we re-evaluate what 
constitutes a possible domestic terrorist target? And how 
should we rethink our definition of critical infrastructure as 
the terrorism threat evolves? And do we consider in Nevada that 
Nellis Air Force Base, the training range, the nuclear test 
site, Hoover Dam, and 50 million visitors are all within a 
small space? How do we add that to the formula? Please.
    Mr. Selim. Senator, if I may, I would like to maybe attempt 
to start to answer your question. Thank you for outlining a 
number of those key issues. I am very familiar with the UASI 
formula, and I want to make two important points before I get 
to that that you accurately touched on in your statement as 
well.
    Two data points to share with you: that over the past 10 
years, firearms were used in 73 percent of domestic extremist-
related killings in the United States. So in a major metro area 
like Las Vegas or other parts of Nevada, the preferred weapon 
of choice to commit an attack is, in fact, without question a 
firearm.
    And you also mentioned in your opening remarks addressing 
the hate and bias and anti-Semitism and bigotry that is often 
the underlying issue that drives many of these attacks. It is 
so important for there to be increased training, resources, and 
engagement with State, local, and community-based partners to 
help address what is often the precursor to much larger 
incidents.
    One of the things that we have looked at very closely and 
that ADL is supporting is a current piece of legislation known 
as the ``NO HATE Act.'' I think this does provide a significant 
increase in resources to State, local, and community-based 
organizations to incentivize the reporting and training and 
engagement on hate-and bias-motivated incidents. I think as we 
start to think through making better risk-based decisions for 
resources, having better data to drive that information is a 
key starting point.
    I would offer that as something for you to consider.
    Senator Rosen. So we need risk-predictive analytics, would 
you say?
    Mr. Selim. Yes, Senator.
    Senator Rosen. Please, Mr. Watts.
    Mr. Watts. Senator, so when we are doing a risk-based 
assessment, we would usually do two types of assessment. One 
would be a vulnerability assessment, which Las Vegas could be 
applied pretty consistently across a wide range. And that is 
where you are looking at the potential targets. But that would 
be matched with a threat assessment. We did not do this very 
well 10 years ago, so oftentimes I would be on a Joint 
Terrorism Task Force training team. Bill and I worked together 
on this. We would go out to--I will give you an example--
Louisville, Kentucky, to talk to them about al-Qaeda, and they 
would be like, ``We have no interest in this, but we have other 
interests in other threats we are interested in.''
    So along with just allocation in terms of resources, I 
think it is making a menu or options for how you allocate UASI 
funding for different things that are needed by those 
locations. It is not just an even map. The vulnerability 
assessment of Las Vegas is going to be wildly different from 
New York City just in terms of how it lays out as a city----
    Senator Rosen. But would you think that categorizing the 
Las Vegas Strip as one entity does not seem correct on its 
face?
    Mr. Watts. No. My vulnerability assessments would be based 
on the type of venues, types of structures; transportation 
nodes are extremely important. But then on the threat 
assessment, too, it would be wildly different for Las Vegas 
than it would be possibly for New York City or Charlotte, North 
Carolina, or any of these locations.
    So rather than making a very cookie-cutter ``everybody gets 
the following,'' I would like to see UASI allocation on both 
the vulnerability and threat assessment side be allocated in a 
way that makes sense for local jurisdictions. And I think that 
is bringing in State and local partners. We have fusion centers 
now which really under----
    Senator Rosen. We sure do----
    Mr. Watts. Tons of them, right? Which understand these 
threats at a local level better. New Jersey State Police and 
the Office of Homeland Security there I have worked with for 
about a decade, and they have done a pretty good job of 
twisting that. But their UASI funding is coming out of New York 
City predominantly. That is how they are doing it. And so there 
are constant battles about what to allocate on, and oftentimes 
it is the Federal Government pushing down, this is what you 
need to focus on, and State and locals saying, ``But this is 
what my problem is.''
    I would like to see better risk integration from State and 
local up to the Federal level.
    Senator Rosen. I look forward to working on that. Our 
fusion center brings together about 27 groups, and that was the 
reason the October 1st tragedy was not worse than it was. And 
so I look forward to working with you on re-evaluating the 
formulas in the future.
    Thank you.
    Chairman Johnson. Senator Scott.

               OPENING STATEMENT OF SENATOR SCOTT

    Senator Scott. Thank you, Mr. Chairman. Thank you for 
holding this hearing today. And thank you all for being here.
    I just finished 8 years as Governor of Florida, and we 
experienced a variety of shootings. We had the Pulse Night 
Club. We had an individual whose father was an FBI informant 
who was, my understanding, supposed to be under FBI 
investigation or surveillance, who killed 49 people.
    Then we had an individual from Anchorage that went to the 
FBI office in Anchorage and said, ``I should not have a gun,'' 
and then they gave it back to him, and then he came to Florida 
and pulled his gun out of his checked suitcase and killed five 
people in an airport.
    Then we had 17 people killed at Parkland. The FBI had a 
YouTube video 18 months before it happened. He said he was 
going to be a professional school shooter, and his name was 
Nikolas Cruz, the shooter, and nothing happened.
    Then I think 35 days before the shooting, the FBI, the tip 
line, somebody called and said this guy--the shooter, was going 
to shoot up a school, and it was never passed on to local law 
enforcement.
    Finally, right before I finished, as Governor three people 
were killed in a yoga studio, and the information had gone to 
the FBI hotline but not to the locals.
    I worked a lot with our fusion centers on a variety of 
issues at the State level. We were working with the FBI and 
other agencies, the U.S. Attorney, the Florida Department of 
Law Enforcement. They really did a good job. But there is 
something that is not working at the Federal level that there 
was prior knowledge, and we had four mass shootings, and, the 
lives of so many families have been completely changed because 
of this.
    So what ideas do you all have that we should be doing at 
the Federal level? Is there something different that the FBI 
should be doing that they are not doing to try to stop this? 
Because in those four cases, there was prior knowledge in 
Washington, but it did not make it to the local level. Mr. 
Watts or Mr. Braniff, do you want to start?
    Mr. Braniff. Thank you, Senator, for the question. So what 
we have been discussing today is the fact that the threshold, 
the legal threshold that allows the FBI to conduct 
investigations is quite high for these kinds of general or 
vague threats that may result in violence. So if the threshold 
for legal action is quite high, logically we need more tools in 
the pre-criminal space, in the civilian space to receive that 
information.
    One problem is people often hear things, and they either do 
not take it seriously or they are afraid to call the FBI with 
that information. They do not want to get somebody in trouble. 
So, one, we need a place to capture those tips that is a non-
criminal justice entity to increase reporting.
    Two, when people do call the FBI but it does not hit the 
threshold for an assessment or a preliminary or full 
investigation, the FBI needs to know it can turn to a civilian-
led intervention team. We do not invest in that.
    Chairman Johnson. Let me just stop here. Stop the clock. I 
want to ask the question: What Senator Scott just talked about, 
did it meet that threshold or was it under the threshold?
    Mr. Braniff. A general statement that ``Jews should be 
killed,'' that ``I want to become a school shooter,'' may not 
make a legal threshold for an investigation by the FBI. And, in 
fact, if we put everybody under investigation who made a 
statement----
    Chairman Johnson. ``I have a gun, and I should not have 
it''?
    Mr. Selim. Can I answer that, Mr. Chairman?
    Chairman Johnson. Sure.
    Mr. Selim. If I may, just 10 seconds. If it may not reach 
the threshold for a Federal criminal investigation or 
assessment, it should absolutely meet the threshold for perhaps 
a nongovernmental organization (NGO) or State and local 
authorities to conduct the type of things that this panel has 
mentioned of interviews, engagements, mental health, social 
service, education providers, meeting and making contact----
    Chairman Johnson. So, again, the question--I do not want to 
put words in your mouth, but there was a failure here. Do we 
acknowledge there was a failure? You can sit there and go, 
``Hey, we need more resources.'' But here are some examples 
where I would think we had legal authority, we could have done 
something. We did not. And I think the key question there is: 
Why not? And how do you prevent those types of law enforcement 
failures?
    Again, I am not trying to beat up on anybody, but I think 
Senator Scott is laying out a pretty convincing case.
    Mr. Chesney. May I contribute something from the recent 
experience in Texas with the El Paso shooting, my home State? 
The mother of the shooter had called local authorities, and it 
is a small police department with limited resources, limited 
training, had not gotten that push toward how do you do proper 
threat assessment in a situation like this. But the local 
officers went by and had a conversation. There was no basis for 
arresting somebody. At least in Texas we do not have red flag 
laws that might enable a process of civil action to remove 
someone's gun from their possession. That is a big part of this 
story. We have not talked about that. We all understand how 
hard the politics are in that, but that is a big part of the 
story as well.
    It was not a civil commitment situation yet. There was not 
enough evidence for that. And yet, in retrospect, it is clear. 
There was the tip; there was the warning; there was the 
opportunity for engagement.
    And I want to reinforce what Professor Braniff said. One of 
the things we could be doing, that Congress could do 
effectively, is to surge resources into the threat assessment 
mechanisms that are being developed, in some places deployed 
very effectively. I believe the Secret Service works closely 
with local school officials and school resource officers, as 
Mr. Watts mentioned. Those sorts of early warning signal 
systems are critical. And, of course, we are now spread far 
beyond just terrorism.
    Chairman Johnson. But, again, we had the early warning. 
Again, I apologize to Senator Scott. I just could not constrain 
myself. Senator Scott.
    Senator Scott. So you really believe that if somebody has a 
video and they say they are going to be a professional school 
shooter, that should not get sent down to the locals?
    Mr. Braniff. It is not a ``should.'' It is not a belief 
statement. When we look at our data, over 60 percent of 
domestic terrorist violent plots succeed. So they are not being 
interdicted by the criminal justice process. So I am agreeing 
that----
    Senator Scott. But don't you think that they should have 
called the local FBI office in all those cases? I have been 
asking for more transparency of how they handled this stuff, 
and I have not gotten it from the FBI yet. Take Parkland. When 
you have the video, and you have a hot tip that it is going to 
happen, and it is somebody that has been arrested 49 times 
locally, and he was told he could not bring a backpack into 
school because everybody believed he was going to be a school 
shooter, that one, no one should have looked into it?
    Mr. Braniff. Senator, please, I do not want to be 
misunderstood. Certainly there were opportunities for an 
interdiction. I would just like us to consider that not all 
interdictions are going to be possible via a criminal justice 
interdiction and that we should think very hard about how 
aggressive we want our Federal law enforcement community to be 
in investigating freedom of speech and freedom of association. 
This is one of the tensions within our Constitution, is that it 
affords a lot of speech, including hate speech, including 
speech that encourages violence. And this is a really 
challenging debate for us to have. How aggressive do we want to 
be?
    Senator Scott. Well, what we did afterwards is we passed 
risk protection orders, where only law enforcement can do it. 
The process has to go through the courts. You have to 
constantly review it so we do not believe we have impacted 
somebody's due process rights. But we have to figure out--and 
what does not make sense to me is why can't I get information? 
That is more money, because I have now been in this process now 
as a Governor and here, and everybody wants more money. I get 
that. That is what they do. Everybody comes to my office asking 
for more money. I get that part. But why wouldn't we want to 
fix a system? The cases that happened in Florida, that ought to 
be fixed. And I do not think just saying throw more money at it 
and have lower standards is the right fix. It seems to me that 
those cases, that is a big enough deal that the information 
should have been sent down locally.
    Mr. Watts. Senator, can I quickly add to that? I do not 
disagree at all. That is a mistake. But I would also say that 
you might be shocked at the volume of tips and leads that come 
in to any FBI office or DHS location, a fusion center, to where 
there is no real assessment mechanism. In international 
terrorism, we did do this. We did very rigorous assessment, 
even down to scoring systems overseas about who has the 
potential to be violent based on several factors. It is not 
done for mass shootings or suspects. We have not gone back 
through that.
    The same thing, we did the Militant Ideology Atlas. We 
looked at all of these factors in terms of what people were 
citing. We looked at all the evidence. It has not been done 
because there has not been a designation of a case or a 
terrorist group at the domestic level, so it is hard to put 
that together.
    So when you go to triage, it really just depends on who is 
on shift that day and what the backlog is. Sometimes that 
backlog, particularly after a violent incident like El Paso, 
more soar to 100 leads a day in an FBI office, which could 
create a lag that is enormous. And then you are just going 
through shifts. There is no real rigorous system for 
assessment, and it is just based on that person that day and 
what they think they should go through.
    The other thing is with the social media part, I do not 
agree with this, but there is pushback that you are ruining the 
lives of young people whenever you aggressively go after them 
for one posting they have done in social media. And so if I 
actually went out on the Internet and sucked in every YouTube 
of a young person making a violent threat or some claim, we 
would maybe run down hundreds of young people every day. I 
agree, there were many warnings and indicators there. Omar 
Mateen is another example. We should have had some handoff 
mechanism with State and local to make that transition.
    I also feel like we have made those triage systems and a 
good method to hand-off to State and locals so that they would 
know. That could be the Boston bombing, Omar Mateen, Las Vegas, 
a thousand different examples. And so we could help them do 
that, but I think clearly defining what to look for around 
these threats, whether it is a school shooter, workplace 
shooter, white supremacist, incel, which is this whole brand-
new branch that has come up, I think that is extremely 
important to do.
    Senator Scott. Thank you.
    Chairman Johnson. Before I turn it over to Senator Sinema, 
I think, again, the whole purpose of this hearing is to 
understand the problem so we can determine do we need 
additional authorities, different allocation, or more 
resources. So, again, I will ask the question. You said 
``mistake.'' I would call this--it seems to me, I think, 
Senator Scott, this was a failure to use existing authorities. 
First of all, is that true?
    Again, let us just talk about Parkland. Here you had a 
video. You had a long history. And, listen, I understand the 
volume. I do not think you have 100 threats like the 
perpetrator of Parkland come into the office. I would think 
that would be, like hair on fire, alarms going off with that 
one. Maybe I am wrong. Mr. Watts?
    Mr. Watts. Yes, I would just say each assessment, 
regardless of how serious it seems when it first comes in the 
door, takes the same amount of time. So I just recall certain 
day when somebody would post something on the news and say this 
person may be in the United States, and you are done for the 
day.
    Chairman Johnson. But, again, that is like one notice. This 
was multiple notices over a very long period of time. So, 
again, you would admit that is a failure to utilize existing 
authorities that is just glaring. Again, I am really not----
    Mr. Watts. Right.
    Chairman Johnson. I understand how difficult this is.
    Mr. Watts. Senator, I understand.
    Chairman Johnson. So we do not need to pass a new law to 
address that. We just need to make sure that we use existing 
authorities. Is that true?
    Mr. Watts. Yes. I think it also comes down to what the FBI 
would investigate. Much of what the FBI gets pumped in terms of 
information, Parkland would be an example, maybe is not 
something that they are immediately going to move on, but it 
would be for State and local law enforcement. So I think it 
comes down to how does the assessment process get recorded and 
put into databases and managed, and then how is that triaged 
and transmitted down to State and local.
    Chairman Johnson. And, Senator Scott, I am going to join 
you in additional oversight letters to get this information 
from the FBI, because we need to know what happened to assess 
this.
    Senator Scott. Yes, because you want to get better--so what 
I did, after Pulse, what we did is we added 46 counterterrorism 
experts at the State level. We added, I think it was, about six 
or seven different offices for State law enforcement. But, 
again, in my State, the fusion centers work, but the 
information to get there first. They work really well.
    Chairman Johnson. We are not beating up on--we are just 
asking these legitimate questions. By the way, law enforcement 
by and large is a State function. Senator Sinema.

              OPENING STATEMENT OF SENATOR SINEMA

    Senator Sinema. Thank you, Mr. Chairman, for holding this 
important hearing.
    The only way our Nation can successfully tackle a challenge 
such as domestic terrorism is by working together, so it is not 
a problem that the FBI can solve alone, nor is it something we 
can leave just to our local police and sheriff departments. But 
by sharing information, working together, identifying areas for 
improvement, and then actually coming up with solutions, we can 
actually make progress here. So I think we cannot let ourselves 
get caught up in arguments about what the perfect definition of 
``domestic terrorism'' is, but instead we need to focus on 
solutions that improve Federal, State, and local efforts in 
this space.
    I know the police departments in Arizona cities like 
Phoenix and Tucson are fully integrated into Federal task 
forces which are addressing this problem right now, and the 
Arizona law enforcement community wants to do whatever they can 
to help stop, prevent, and prosecute crimes that fall under 
domestic terrorism, so I am hoping we can continue to talk 
about how we improve our existing Federal and local 
partnerships.
    My first question is for Mr. Selim and Mr. Watts. In 
Arizona, the FBI leads task forces related to domestic 
terrorism, and the Tucson police departments report these task 
forces are a great tool. But both of these departments are 
large, and they can assign officers full-time to the task 
force. That is not the case for smaller departments in my 
State.
    So what changes to the existing FBI task force efforts 
related to domestic terrorism need to be made so that smaller 
local law enforcement departments can access needed information 
and share what they are seeing on the ground with the 
appropriate Federal authorities?
    Mr. Selim. I will start with just a very short response, 
and then my co-panelists can jump in. Senator, thank you for 
your question, for your very important question about--I 
understood your question as the need for better integrated 
information sharing across the law enforcement spectrum, 
irrespective of the size of that department. And I would just 
add to that that the information sharing that is so critical 
that you are alluding to in your question happen not just with 
the size of State and local law enforcement, but as the other 
witnesses at this table have mentioned, the information sharing 
needs to happen outside of law enforcement circles as well, 
especially with individuals who may hold some position, school 
resource officer, mental health, social service, education 
providers, et cetera. It is really that integrated information-
sharing platform that is what is missing when we are thinking 
about this issue holistically.
    Mr. Watts. I agree with George, and I do a lot of trainings 
with State and local law enforcement, and the further they are 
from a Joint Terrorism Task Force hub, the less information 
they are going to get naturally, and the more responsibilities 
they have across a wide spectrum.
    The difference now compared to even 20 or 30 years ago is 
there are so many violent ideologies that are connected in a 
local rural area that a local law enforcement officer will 
never even be able to understand or detect or interdict.
    So part of the solution is how do we quickly call them up 
and integrate them into these systems. We have task force 
officers spread all over the country. But the other part is: 
How do we interdict online? We do not always have to do all the 
work with that State and local person. Not all the 
interdictions have to be with community partners. We actually 
have people that see these things in the online space, 
particularly in Arizona. One, two, three would be white 
supremacy, incel, and even conspiracy-based violence, 
particularly in Arizona. I worry about all three of those. A 
local law enforcement officer cannot do all the criminal 
justice tasks there and understand all three of those that 
might pop up.
    So how do we help them? I would like to see rapid briefings 
on threat, which means we have to do threat assessments first, 
and communicate that in a very concise way. We did this in the 
FBI during al-Qaeda-ISIS. We did quick cheat sheets, updates, 
even YouTube-type videos, short videos, which inform people on 
threat. And then the second part is online partners can be 
critical in this. There are several out there that do one-to-
one engagements in both the international terrorism and 
domestic terrorism space, and we could lever them to do quick 
engagements with individuals, assess them, and then relay that 
information back in.
    I think we tend to think always in terms of our responses 
being this physical task force team moving out, but there are 
online interventions now that we have actually honed in the 
jihadist space that we could use in the domestic context.
    Senator Sinema. That is very helpful.
    My second question is also for the two of you. One of the 
great challenges that always comes up with Federal programs is, 
of course, information technology (IT). So task forces and 
other groups are important, but making sure that local 
departments can interface with key Federal databases is also 
important.
    So have you come across IT challenges that hamper 
information sharing? For instance, one of Arizona's police 
departments reports that it is difficult to access certain 
threat profile software programs, partly because the licenses 
to use these programs are cost-prohibitive and there is no 
money to provide additional access.
    Mr. Watts. That is absolutely correct, and it is not just 
in terms of the databases and access. They need training in 
terms of how to utilize them and effectively communicate on 
them. And then the third part is cybersecurity, which is really 
a separate debate, which is if you have seen Baltimore or any 
of these cities right now that have been struggling with 
cybersecurity attacks, that is partly because they are so 
underresourced in the technology space and the solutions are so 
costly. And the larger cities can fund that both internally and 
through Federal grants.
    So I would love to see some way to help State and local law 
enforcement get integrated in terms of these communication 
mechanisms. Right now it is still based on a phone call. That 
is how most of this would be communicated, and that is really 
tough to do, I think, and expect them to have rapid response 
and triage and interdicting it. I do not know how they get up 
to speed quickly enough that they could really understand what 
to do.
    Mr. Selim. Senator, thank you for your question. Let me add 
an important data point to this just to give you a sense of 
this threat environment. As of September 1, 2019, as an 
executive within ADL, a nongovernmental civil society 
organization, we are not bound by the degree and scope of 
information that we can retain. And so as of September 1st of 
this year, we had provided as a civil society organization over 
400 reports or bulletins and information that has been packaged 
to Federal, State, and local authorities across the United 
States. That is just on average more than one per day this 
calendar year alone. We are on track to supply law enforcement 
information collected from the online environment more than 600 
times. And part of the advantage of being a nongovernmental 
organization is we can take that data, we can retain it, we can 
store it, we can analyze it in different ways, and we can hold 
onto it in perpetuity.
    When I was the Director of the Interagency Countering 
Violent Extremism Task Force, that was not the case in the 
Federal Government. The rules and limitations on data retention 
and threshold and database development are extremely cumbersome 
to some degree, where if there is not a real or perceived nexus 
to a crime, that data cannot be held on a Federal Government 
computer. But as a nongovernmental organization, if, God 
forbid, there is another mass shooting or domestic terror 
attack tomorrow--and I really hope that there never will be 
another one, but God forbid if there is, the ADL can quickly go 
through our records and determine if the alleged shooter had 
ever posted or kind of made some type of insinuation, as 
Senator Scott was referring to, of a mass shooting or something 
else.
    And so the ability to collect that data, analyze it, retain 
it for long periods of time exists outside of government, and 
similar considerations for data retention and analysis and some 
of these things that are prescribed in the DATA Act that is 
currently pending before Congress should be considered to have 
a more accurate depiction of the threat environment.
    Senator Sinema. Thank you.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Hassan has a quick question.
    Senator Hassan. Yes, thank you, Mr. Chairman. And I will 
just observe, too, that after 9/11 we put together a real 
counterterrorism architecture that allowed for some of the kind 
of information sharing that we are talking about at the 
domestic level that is not happening and has not been 
resourced. So I hope we could focus on that moving forward 
because I think that that is one of the real deficits we have 
been talking about.
    The quick question I had was for you, Mr. Selim, because 2 
weeks ago we were all in New York City right before 9/11, 
having a field hearing at the National Memorial and Museum, 
which was an extraordinary place and it was--thank you to both 
the Chair and the Ranking Member--a wonderful and important 
opportunity. We had three former DHS Secretaries there, and one 
of the things we talked about with them was about the recent 
rise in threats against and attacks on houses of worship across 
the country.
    Everybody agrees no one, regardless of their faith, should 
fear for their lives when they go to their house of worship. 
That is where we want them to feel safest, and that is where 
they should be safest.
    Your organization has recorded 1,879 anti-Semitic incidents 
in the United States just in 2018, including the deadly attacks 
in Pittsburgh, not to mention the attack earlier this year in 
Poway.
    In New Hampshire, one rabbi noted to me that now they only 
open the doors to her temple shortly before services begin, and 
they lock the doors shortly after the start of services. As she 
leads her congregation during those minutes when the doors are 
open, she said she wonders, ``Is this the night we die?''
    So, Mr. Selim, can you share with me your thoughts about 
how Congress, the Department of Homeland Security, and the 
entire Federal Government can work with law enforcement and 
community organizations to keep soft targets like houses of 
worship safe from threats? I worked with Senator Portman on 
getting grants to houses of worship of all sizes in all 
communities because New Hampshire is a small State, we are a 
rural place, we do not always qualify for the big urban grants. 
But what else can we be doing to work to really keep soft 
targets like these safer?
    Mr. Selim. Senator, thank you for your question, and thank 
you for making such a sober point in this testimony about the 
fear that really tears at the fabric of faith-based communities 
across this country. It is very real, and it is something that 
many communities live with on a day-to-day basis.
    For context, even going back to pre-9/11, for more than 
three decades ADL has been a leader on the issue of security 
for communal organizations, especially for schools and 
synagogues, and it is obvious just based on your question that 
the Jewish community and the data that ADL has recorded in 2017 
with a 57-percent increase in anti-Semitic incidents across the 
country has been a significant target of hate crimes and bias-
motivated crimes.
    The FBI and DOJ's own data for calendar year 2017 shows a 
17-percent increase in hate crime surge across the United 
States. It is so important that as we think about protecting 
any house of worship or any faith-based or vulnerable community 
in this country, irrespective of race, religion, ideology, or 
sexual orientation, that we are doing so mindful of the threat 
environment that we are in today.
    And so one of the things that ADL has continued to lead--
and we welcome partnership with other governmental and 
nongovernmental organizations--is working to increase the 
awareness of the threat environment as well as partnering with 
organizations that do teaching and education on preventing 
targeted violence and mass attacks across the United States. I 
think much of the work that has come out of the Federal 
Government in this regard for teaching, training, education, 
and partnerships across faith-and community-based groups has 
been foundational, but much more resources and personnel need 
to go into these efforts to increase a State of preparedness, 
if you will, across all communities that could be vulnerable.
    Senator Hassan. Thank you very much, and, Mr. Chair, thank 
you for your indulgence.
    Chairman Johnson. Thank you for attending the hearing.
    I want to go right to Professor Chesney. In your testimony, 
both written and verbal, you talked about gaps in laws. I know 
in your written testimony you were talking--one example is the 
caliber of a weapon used. It is true that most criminal law is 
State law and enforced at the State level. Within those gaps, 
are a lot of those gaps covered by State law as well?
    Mr. Chesney. Yes. It is important never to lose sight of 
the fact that State law has comprehensive coverage as a matter 
just of general violent crime statutes across the Nation for 
all the scenarios where we have an actual violent act. I think 
there is no scenario, once you have a completed act or an 
attempted act or conspiracy to do the same, where you could not 
bring any charges.
    Chairman Johnson. So that is my point. So what do the gaps 
in Federal law--what problem does that create? We just heard 
Mr. Selim talk about the fact that we cannot hold data for 
constitutional reasons. Describe what problems that creates in 
terms of the gaps in Federal law when those gaps are filled, 
once the act is committed, by State law.
    Mr. Chesney. Alright. So if I understand the question 
right, the issue is given that there are some gaps in Federal 
law but not at the State law level.
    Chairman Johnson. Kind of what is--so?
    Mr. Chesney. So does it really matter, right. There are a 
couple of arguments that are commonly advanced. I think there 
is some merit to these. I will articulate them.
    First of all, there is an argument about the important 
symbolism of what is Federal criminal law covering and what 
does it 
not cover. And every single time there is a domestic terror 
incident--and, unfortunately, in Texas we have had plenty of 
repeat examples of this--one of the first things that tends to 
come up with the reporters and, thus, with the public at large 
is: Why isn't there a terrorism charge here? Why isn't there a 
terrorism charge here? Do people not think this is serious? And 
the response is, well, the district attorney (DA) in El Paso 
has indicted for capital murder. It does not get more serious 
than that. It does not matter. There is no terrorism charge. 
Where is the terrorism charge? So there is something to be said 
for showing that.
    Separate from that, there is concern--I think Mr. Watts' 
testimony has really highlighted this. There are spillover 
effects into what investigative predicates are available for 
Federal law enforcement. Insofar as we want to focus on that, 
not losing sight of the fact that State law enforcement can do 
its own investigative work, but, nonetheless, what the Feds can 
do really matters, and if there is a real or even just a 
perceived lack of ability to go into certain areas because of a 
lack of potential downstream charging options, that is a 
problem as well.
    Chairman Johnson. OK. So that really needs to be properly 
defined, because I also believe in your testimony you talked 
about--I do not want to put words in your mouth, but there are 
concerns about, for example, like we can designate foreign 
terrorist organizations, there have been some suggestions to 
provide those investigative abilities, start designating 
domestic terror organizations. Can you describe your concerns 
about that?
    Mr. Chesney. So the designation phrase could mean a lot of 
different things, and the consequences that follow from having 
any kind of designation really matter.
    In the foreign terrorist organization context, famously 
there are really serious consequences because the material 
support statute attaches just a blanket embargo, criminal 
penalties for any association, including even being an active 
member of the group yourself. I do not see many people talking 
about doing that in the domestic space, nor do I think we 
should do that.
    So we have to make sure we are clear. We are not talking 
about----
    Chairman Johnson. You could make criminals out of just 
normal citizens who are contributing to what they consider is 
an OK organization.
    Mr. Chesney. The First Amendment consequences that follow 
from this, we do not want to go there. Will it help in some 
fashion to have some other--not that but some other form of 
designation process that would be focused on domestic terrorist 
organizations? There is a problem here that a lot of what is 
going on in this problem we are all engaging with here does not 
root back to identified, specific, articulable organizations in 
the first place. There are common ideologies and there are 
social networks, but I think Mr. Watts' testimony highlights 
this. We are not talking about command-and-control networks. At 
least, that is not what I see from the outside. So the 
designation mechanism in that formal sense probably also is not 
a great fit for this problem set.
    Do we need to have something, though, to facilitate the FBI 
in particular in being able to open and advance through the 
stages of investigation something that approximates what Mr. 
Watts described as the national approach? When you have an al-
Qaeda, it is really easy to get a nationwide investigation 
going. Is there some analog to that? I think we should avoid 
the phrase ``designation'' because it leads to these other 
issues, but something that would make sure that the FBI is more 
clearly taking advantage of the expansion of counterterrorism 
prevention authorities that the AG Guidelines invite.
    Chairman Johnson. So here is the concern, going back to 
what issue Senator Scott raised, is here you have existing 
authorities where there is just a failure of using those, and 
now we want to create new authorities that create certain 
problems.
    In Robert Bork's book, which I thought was a pretty 
prophetic book, in 1996, 2 years after Yahoo! was established, 
he talked about these deviants, isolated deviants now having 
this tool, this Internet, where they can start connecting to 
other formally isolated deviants, and that is kind of what we 
are talking about.
    With international terrorism, Islamic terror groups, there 
is that kind of core group, core ideology, and people are 
connecting to it. How many connections do we know about? How 
disconnected are these groups? Is it just that those isolated 
deviants now being able to connect to this Internet and 
realizing--it maybe not a core group. It is maybe not an 
organization. But they are just feeding in copycats, and then 
literally how do you combat that within the framework of a 
constitutional government where we recognize people's 
constitutional rights?
    Again, I will go back to what I think is the easiest way to 
describe this. How does America in a free and open society deal 
with individuals that are not guilty yet? Mr. Watts.
    Mr. Watts. Senator, great example. So there are two things. 
If I went to the best domestic terrorism investigator in the 
FBI right now, and I said just go stop the next person that you 
think is going to do a terrorist attack in the United States, 
they would probably go to Telegram. And then you would have 
to----
    Chairman Johnson. They would do what?
    Mr. Watts. They would go to Telegram, which is a social 
media platform.
    Chairman Johnson. Oh, OK.
    Mr. Watts. They would see that as, OK, this is a place--or 
8chan, as we saw in some of the previous ones. Then if you are 
the Special Agent in Charge (SAC) out in that jurisdiction, you 
would say, ``OK, what is the case that you are investigating?'' 
And he would say, ``Well, I am trying to stop a domestic 
terrorism attack.'' ``What charge?'' He would not have one, 
right? So that is one problem.
    The second part, though, is we do have opportunities to 
designate foreign groups right now that could give us the 
predicates to open cases back into the United States. I do not 
want to name----
    Chairman Johnson. If they are connected to a foreign group.
    Mr. Watts. Yes. I could think of four right now that the 
State Department could potentially designate as an 
international terrorist organization that do not line up with 
jihadists that could open the doorway so that you could look 
for inspired terrorism, and in much the way we did it with al-
Qaeda-ISIS, just not traditionally the way we think. Now, that 
is a back-ended way to do that, to open that up, but it would 
make it easier for them to enter into those spaces.
    But I feel for the domestic terrorism investigator because 
I know they are nervous, even when they are moving forward. ``I 
do not have a specific individual. I do not have a specific 
crime. I just know this is a violent ideology. It is pushing 
people, and I know this is where they are doing it.''
    Chairman Johnson. Oh, yes, it is a vexing problem, and I am 
going to ask indulgence from Senator Peters here. And I am not 
beating up on the FBI. I truly appreciate your past service, 
and I know the difficult nature of what they are trying to deal 
with. But we had the Garland shooting, and there were two 
perpetrators there. Again, I do not like naming them. And this 
is a letter I wrote, and in that letter I said, ``According to 
reports, during that time the FBI paid [informant name] around 
$132,000 to gain intelligence on one of the perpetrators,'' 
allegedly also sending text messages to this perpetrator that 
read, ``Terror of Texas.'' I think it was also true that there 
were multiple meetings at coffee shops or whatever.
    Again, if I am part of a community and I have FBI agents, 
again, concerned about issues, there is somebody who said some 
nasty things, then you have an FBI informant having coffee. You 
could almost call that incitement. Talk a little bit about 
that. That is a real problem. There have been other cases, and 
they are celebrating, we have stopped a terrorist incident. Is 
it a terrorist incident that we literally incited? Did we plant 
an idea in somebody's head who was just going off half-cocked?
    Mr. Watts. This was a challenge throughout the al-Qaeda-
ISIS era, which is where is the line between incitement and 
entrapment, where you are pushing a potential suspect to that. 
Over time, if I am correct--and I do not have the data in front 
of me--declination rates from U.S. Attorneys went down, 
meaning--or went up. They were declining more cases even under 
that circumstance where they were being let go.
    I think the other problem with a lot of those cases is the 
borderline of what ideology, violent ideology, were they 
adhering to. Oftentimes they did not know. And the further you 
get away from a named group--you could see this in Phoenix 
right now. There was a case recently where an individual was 
citing both al-Qaeda-ISIS propaganda and white supremacist 
propaganda at different times. It was very confusing whenever 
you get away from that. So what is it you are investigating? 
And so I think it is a persistent problem around that. Part of 
it is measurement. If we do not have the measurement and we do 
not really consolidate it, it is very difficult.
    I would also say that even for the investigators, they do 
not necessarily know where that line would be, and we have not 
informed them about how to do that. They would maybe not know 
where am I pushing someone to violence versus adhering to an 
ideology that is mobilizing someone to violence.
    Chairman Johnson. I will turn it over to Senator Peters 
here, but, the point of this hearing is just, again, that first 
step, to kind of flesh out how difficult this problem is. 
Social media companies, I have been dealing with them. They 
have done an awful lot about taking down these sites, whether 
it is Islamic hate sites or other hate sites or Russian 
interference in our election sites. But it is not a perfect 
system. And there are real concerns about political bias being 
put into their activities as well. So this is an incredibly 
difficult issue, and that is why we need to have, as I think 
this hearing was, just a very high quality discussion fleshing 
all these things out. We have a long way to go, but it does--I 
am an accountant, a business guy. You need information to 
manage any kind of problem, and so we kind of want to work with 
the departments, with you folks, to help codify what needs to 
be codified but develop that baseline information and then 
continue this discussion, because we are not going to come up 
with anything anytime real soon on this.
    But my final statement would be I am very encouraged, 
having read all your testimony and then reviewing what the 
Department of Homeland Security has published here, how they 
have to implement it. But I think even you, Mr. Selim, I would 
think you would be pretty pleased by what you are reading here 
in terms of what the direction is.
    Mr. Selim. Absolutely.
    Chairman Johnson. That is great. Senator Peters.
    Senator Peters. Well, thank you, Mr. Chairman. Just a 
couple followups, and, again, I agree. This has been a very 
productive and great conversation and the first of what will 
have to be more conversations as we continue to think about 
this.
    I ran out of time in my questions. I want to ask Mr. Selim 
basically the question I asked Mr. Chesney at the very end. If 
you could speak to some of the concerns that communities that 
are targeted by white supremacists have about expanding 
domestic terrorism authorities. Are there concerns out there 
that you are hearing?
    Mr. Selim. Sure, and let me just, Senator Peters, thank you 
for your question and express thanks to both you and the 
Chairman for holding this hearing in such a bipartisan and 
inclusive way. I think it is really demonstrative of the work 
that you all and the Committee staff is bringing to this very 
important issue.
    To answer your question specifically, Senator, there is a 
reason that this has not been done to date. And as the Chairman 
was alluding to earlier, this is very difficult and it is very 
hard. There has been a history in this country of law and 
policy that has disproportionately and disparately impacted 
ethnic and religious minority groups. I say that from the 
standpoint of between 2006 and December 2012, I served as a 
Senior Policy Adviser in the DHS Office for Civil Rights and 
Civil Liberties. I saw firsthand the disparate impact of post-
9/11 law and policy that had on Arab, Muslim, Sikh, and South 
Asian groups and individuals who were perceived to be members 
of those groups. So the fear from many community organizations, 
including the ones I mentioned, is very real because, as a 
country, we have a history of mistrust between law enforcement 
organizations and communities that in some places is better and 
worse in others. As an organization that is a founding member 
of the Leadership Conference of Civil and Human Rights, it is 
important that we mention, as we begin to consider and as 
Congress begins to examine this undertaking, that any measure 
we take, either legal or policy-wise, that we do not 
disproportionately harm communities that are already the target 
of white supremacist and other violent extremist ideologies.
    And so it is really important to underscore the protections 
that need to be put in place, the congressional oversight that 
is required, the privacy, civil rights, and civil liberties 
oversight that needs to be conducted. And as you all begin to 
consider legislative solutions, those factors are critical as 
Congress begins to examine this very important topic.
    Senator Peters. Thank you.
    This question is for you, Mr. Chesney. It seems as if the 
decision of when to call a crime ``terrorism'' has largely been 
subjective. I say that for the reason--a couple of examples 
here. The FBI declined to investigate the Heather Heyer murder 
in the Unite the Right rally in Charlottesville as a domestic 
terrorist, and yet 2 years later, with mounting public concern 
over attacks by white supremacists, the FBI announced that both 
the El Paso shooter and the Gilroy Garlic Festival shooter 
would be investigated as domestic terrorists.
    What explains what appears to be an inconsistency in the 
FBI's determination of whether or not to investigate a 
perpetrator as a domestic terrorist?
    Mr. Chesney. So the first thing I would say is that there 
is, as you say, a certain amount of subjectivity in the mens 
rea elements of both the very statutory definitions and the 
non-charging regulatory definition such as the FBI regs that 
talk about this. There is the requirement that there is an 
intent to coerce a government or to intimidate a civilian 
population or part thereof.
    There is a wide spectrum that runs from things that are 
very clearly designed to be in that zone and that fit that very 
well and things that could be described as having that effect, 
but perhaps it is not obvious as much. So there is bound to be 
a lot of marginal calls. I am not suggesting any of the 
examples you mentioned are such marginal calls, but there is 
always going to be a little bit of fuzziness on the edge.
    I do think it is fair to say that for a considerable period 
there was a way of looking at things like what happened in 
Charlottesville more in terms of hate crime, which is a very 
important and equally visible concept, and a tendency to assume 
that we kind of need to slot things toward one bucket or the 
other bucket, as if you have to choose between them. And if 
something feels or resonates as hate crime, at least until 
recently there was a tendency to slap that label on it and move 
along and not really pause to consider whether, might that also 
be viewed as terrorism? Isn't hate crime, writ large, often a 
subset of terrorism?
    Now I think we are beginning to see, and especially as it 
has crystallized in past year or so with domestic terrorism 
being so much more visible in our dialogue about race-based 
political violence, we see that hate crime and terrorism are 
really overlapping much more. So I think it follows inevitably 
that you will start seeing more forward-leaning use of the 
terrorism label as an investigative category and as a charging 
category when possible; whereas, you might not have seen that 
in a few years past, and that is probably a good thing.
    Senator Peters. One last question, and this is for you, Mr. 
Braniff. While I am concerned that the government does not 
consistently provide data on domestic terrorism, as we have 
said throughout this hearing, I am probably even more concerned 
that the limited data they do provide may be inaccurate and 
unreliable, and that creates a whole set of problems that we 
have to address.
    An example: In January 2018, DHS and DOJ issued a report 
that falsely claimed that three out of four terrorism 
convictions in the United States were of foreign-born 
individuals. A year later, DOJ acknowledged the errors in its 
data, but they refused to withdraw the report that had this 
false data.
    So my question to you is: Do your data sets contradict the 
2018 report? And is the data produced by DOJ and DHS reliable, 
in your estimation?
    Mr. Braniff. Thank you for the question, Senator Peters. 
Our data does not line up with the data found in that report. 
We actually sent a statement for the record to the House 
Homeland Security Committee upon their request for data that 
described the socio-political--or economic backgrounds of--
sorry. Let me be more clear. It described the backgrounds of 
perpetrators of terrorism in the United States using various 
data sets, many of which I have briefed today. And, of course, 
they paint a very different picture if you include domestic 
terrorism in those statistics. If you exclude domestic 
terrorism and only include international terrorism, then you 
get half of the story, and the half of the story that was 
reported on.
    Terrorism is inherently politicized. Terrorism is intended 
to get an emotional response from individuals. It lends itself 
to be manipulated either subtly, consciously or unconsciously, 
because it is uncomfortable to talk about many of these things 
and the motivations behind this kind of violence. I think it 
has been very important that we have had these public-facing 
objective data sets that are transparent. Our inclusion 
criteria are publicly available so you know exactly why we 
include what we include in our data set. And they serve as a 
check against the potential for politicization of terrorism 
data.
    I cannot speak to the accuracy of DOJ and DHS data 
generally. In that one instance I think the data were 
misleading. But we pump this data out as aggressively as we 
can, so our data sets are used by fusion centers all over the 
country. The Global Terrorism Database is downloaded 1,000 
times per month, and we answer government requests for 
information every 1\1/2\ days at START. So we try to serve as a 
sounding board and an objective, nonpartisan entity that holds 
these data for the public.
    Senator Peters. Good. Thank you for that. And, again, thank 
you to each of our witnesses. This has been a great hearing, 
and we will look forward to having a continuing dialogue with 
each of you as we move forward on some of these issues. Thanks 
again.
    Chairman Johnson. So I do not want to let the moment pass 
because the last answer talked about politicizing terror 
events, so let me make another pitch. The use of ``far-right'' 
and ``far-left'' is just not helpful. It feeds into that. It 
politicizes it. And nobody on this panel is associated with 
anybody on the far right or the far left, so just I would say 
drop that. Again, call a hate group a ``hate group,'' call a 
terrorist a ``terrorist,'' and let us move forward, because we 
all agree that we abhor that. We want to do everything we can 
to prevent these types of tragedies in the past.
    Again, I want to thank the witnesses. I think this was an 
excellent hearing. It is a first step. We will continue. We are 
going to continue to work with Committee Members, DHS, and the 
Department of Justice in terms of getting that data and getting 
it right and try and work through these very thorny, very 
vexing constitutional issues, protect constitutional rights, 
and at the same time try and give law enforcement the 
resources, the authority, the priorities to try and prevent and 
mitigate these tragedies that nobody wants to see. So, again, 
thank you.
    The hearing record will remain open for 15 days until 
October 10th at 5 p.m. for the submission of statements and 
questions for the record. This hearing is adjourned.
    [Whereupon, at 12:05 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
